<html>
<title> - CASTRO'S CRACKDOWN IN CUBA: HUMAN RIGHTS ON TRIAL</title>
<body><pre>[Senate Hearing 106-52]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 106-52
 
           CASTRO'S CRACKDOWN IN CUBA: HUMAN RIGHTS ON TRIAL

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                     U.S. GOVERNMENT PRINTING OFFICE
55-879 cc                    WASHINGTON : 1999




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Calzon, Frank, Executive Director, Center for a Free Cuba, 
  Washington, DC.................................................     8
Gutierrez-Menoyo, Eloy, President, Cambio Cubano, Miami, FL......     4
Montaner, Ruth C., Representative, Internal Dissident Working 
  Group, Miami, FL...............................................    12
Zuniga, Luis, President, Foundation for Human Rights in Cuba, 
  Miami, FL......................................................    15

                                Appendix

Coverdell, Hon. Paul, U.S. Senator from Georgia, prepared 
  statement of...................................................    29
del Pozo, Dr. Omar, prepared statement of........................    29
Gutierrez-Menoyo, Eloy, prepared statement of....................    31
European Investment in Cuba Before Human Rights Crackdown--
  submitted by Senator Jesse Helms...............................    34

                                 (iii)

  


           CASTRO'S CRACKDOWN IN CUBA: HUMAN RIGHTS ON TRIAL

                              ----------                              


                       WEDNESDAY, MARCH 10, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senators Helms, Hagel, Dodd and Torricelli.
    The Chairman. The committee will come to order.
    Senator Dodd of Connecticut is on his way here, but I have 
been instructed to proceed in his absence. This town has slowed 
down this morning because of our snow.
    This morning's meeting of the committee will focus on Fidel 
Castro's recent crackdown on courageous Cubans and independent 
journalists who seek freedom from the heavy-handed treatment 
imposed on them by the Castro Government.
    Now, of course, there is nothing new about Castro's 
brutality. But the latest Castro crackdown is significant 
because it violates Castro's commitments to the Pope. The Pope 
asked Castro to ``open up to the world'' and to respect human 
rights. Castro's reply now has been heard. He gave a bloody 
thumbs-down to the Pope of Rome.
    The latest crackdown also comes despite years of Canadian 
coddling and European investment in Cuba. The Canadians' self-
described ``policy of engagement'' has served to prop-up the 
Castro regime; but it has done absolutely nothing to advance 
human rights or democracy.
    Those who have urged unilateral concessions from the United 
States in order to nudge Castro toward change surely must now 
acknowledge that appeasement has failed, as it always does.
    The United States response to this latest wave of 
repression must be resolute and energetic. We must invigorate 
our policy to maintain the embargo on Castro while undermining 
Castro's embargo on the Cuban people.
    We should make no secret of our goal. I myself have 
declared over and over again publicly and repeatedly that, for 
the sake of the people of Cuba, Fidel must go, and whether he 
goes, ladies and gentlemen, vertically or horizontally does not 
matter to me at all.
    Since the Pope's visit to Cuba, I have urged the 
administration to increase United States support for Cuban 
dissidents and independent groups, which include the Catholic 
Church. Once again I call on the Clinton administration to 
increase U.S. support for dissidents to respect the 
codification of the embargo and to work with us in the Congress 
on this bipartisan policy.
    Castro's recent measures make clear that he is feeling the 
heat from our efforts to reach out to the Cuban people, and 
that is why he is trying to crush peaceful dissidents and 
independent journalists who are daring to tell the truth about 
Castro's bankrupt regime.
    This is why he has made it a criminal offense for Cubans to 
engage in friendly contact with Americans.
    This cowardly brutality on the part of Castro, when one 
pauses to think about it, shows that he is a weak and 
frightened despot. His cruelty should make us more determined 
than ever to sweep Castroism into the ash heap of history.
    Now each of our witnesses this morning has been in close 
and daily contact with friends and relatives on the island. 
They are, therefore, in a unique position to describe and 
analyze recent events.
    One of our witnesses, Mr. Zuniga, spent 19 years in the 
jails of Castro, as prisoners of conscience have been held on 
so many occasions. Two other witnesses, Mr. Calzon--and I hope 
that is the way to pronounce your name--and Ms. Montaner were 
named last week in Castro's kangaroo court as collaborators 
with the four prominent dissidents on trial in Havana.
    So I welcome the distinguished witnesses. Mr. Frank Calzon 
is executive director of the Center for a Free Cuba in 
Washington. Mr. Eloy Gutierrez-Menoyo.
    Also we have Ms. Ruth Montaner, who has been delayed by the 
weather. She will be here later. She is the representative of 
the Internal Dissident Working Group in Miami, FL. Last, but 
not least, is Mr. Luis Zuniga, president of the Foundation for 
Human Rights in Cuba, Miami, FL.
    Senator Dodd has arrived. I know he joins me in welcoming 
these distinguished witnesses to whom I will say again any 
enemy of Fidel Castro is a friend of mine.
    Senator Dodd.
    Senator Dodd. Good morning, Mr. Chairman, Senator Hagel and 
witnesses. I am impressed that all of you have made it here 
with all of this rough weather we are having.
    The Chairman. The witness whom I said was on her way has 
just arrived.
    We welcome you, Ms. Montaner.
    Senator Dodd. Mr. Chairman, thank you very much. I will 
catch my breath as we start out. I thank you for holding these 
hearings.
    It has been some time since the Foreign Relations Committee 
has had a hearing on the subject matter of Cuba, and I believe 
that each of us here this morning shares the common goal--I 
hope we all do, anyway--that a peaceful, democratic change take 
place in Cuba and take place as soon as possible.
    Where we differ, I suspect--and we will maybe hear some of 
this this morning--is what is the best path on which we can 
travel to achieve that goal. Too often I think people have 
allowed their differences on how best to achieve their goals to 
confuse the desire and determination of what we all want to 
seek in the end, and that is a democratic government in Cuba.
    So, Mr. Chairman, I thank you for bringing together an 
interesting group of individuals who will share their 
perspectives on the current state of human rights in Cuba.
    Not surprisingly, each of our witnesses this morning has a 
different personal experience with respect to human rights in 
Cuba. They also have different views, I think, on how best to 
foster increased respect for human rights in that country.
    I would like to call particular attention to my colleagues 
of one witnesses who is here with us this morning. He is Eloy 
Gutierrez-Menoyo, who is currently the president of Cambio 
Cubano, a nonprofit organization based in Miami. But I am not 
sure that other witnesses here, who are going to be able to 
speak with knowledge about the human rights practices in Cuba, 
has had quite the same personal experience that Mr. Gutierrez-
Menoyo has had with respect to this issue.
    Eloy took up arms against Fidel Castro in 1964. He fought 
in the mountains against the Cuban Government, was captured, 
and subsequently spent 22 years in a Cuban jail, until his 
release in 1986. He lost the hearing in one ear during his 
incarceration, Mr. Chairman.
    Following his release from prison, Mr. Menoyo went into 
exile in Spain and then came to the United States. He currently 
lives in Miami.
    In 1992, Mr. Menoyo established an organization which I 
have mentioned, called Cambio Cubano. That organization has a 
message that differs from the message of other anti-Castro 
organizations. Cambio Cubano has a different view as to how 
best to advocate an increased respect for human rights and for 
the peaceful change and transition that we all hope will occur 
in Cuba.
    In a number of his writings, Mr. Menoyo has described 
United States and Cuban policies as the two edges of the Sword 
of Damocles--each both in its own way an obstacle to creating 
the necessary conditions for democratic change to occur. I 
think this is a very apt description of where we find ourselves 
with respect to United States-Cuban relations.
    Much of what happens with respect to the United States 
policy is orchestrated in Havana, and vice versa. Cuban 
authorities take certain actions knowing full well that we will 
respond in predictable ways. Rather than crafting a policy that 
serves the United States' long-term interests, in my view we 
simply too often act and react to events as they unfold from 
day to day.
    None of these measures brings us any closer to the ultimate 
goal of fostering a peaceful transition on the island of Cuba.
    I profoundly disagree with the recent crackdown by the 
Cuban Government on political and human rights activists. I 
think that it was counterproductive and uncalled for, to put it 
mildly.
    Having said that, I do not believe that the United States 
response to such policies should be to isolate further the 
Cuban people, the 11 million of them, from contact with the 
United States. Nor do I believe that denying food and medicine 
to the 11 million people on the island of Cuba will improve the 
human rights practices of the Cuban Government.
    Moreover, such restrictions are in and of themselves 
violations, in my view, of internationally recognized human 
rights.
    I am pleased that, thus far, the Clinton administration's 
response to recent events in Havana has been measured. I am 
also pleased that Major League Baseball, the Orioles, the 
Players' Association for the Cuban Institute of Sports, and the 
Cuban National Team have recently reached an agreement to play 
two games this year--one in Havana on March 28 and the other at 
a later date in Camden Yards in Baltimore.
    It is my understanding that the Clinton administration is 
prepared to approve the necessary licenses and visas to make it 
possible for the Orioles to travel to Havana and for the Cuban 
national team to enter the United States at a later date.
    I believe that these kinds of people to people contacts 
between the United States and Cuba will do more to foster 
political, social, and economic change in Cuba than restricting 
trade or offering hundreds of resolutions in the United Nations 
condemning Cuba for its human rights practices, as justified as 
they may be.
    I would also hope that members on both sides of the aisle 
in the U.S. Senate would see the wisdom of supporting projects 
and programs of this kind. They are not going to change the 
conditions in Cuba overnight. But it begins to help us shape a 
policy that is more deeply rooted than that which acts and 
reacts, and acts and reacts.
    Mr. Chairman, I look forward to this hearing this morning 
and hearing from our distinguished panel of witnesses. Again, I 
thank you immensely for having this hearing here today.
    The Chairman. Thank you, Senator.
    Now the distinguished Senator from Nebraska, we are glad to 
hear from you.
    Senator Hagel. Mr. Chairman, thank you. I thank you, as 
well, for holding this hearing.
    I welcome our witnesses and look forward to hearing from 
them.
    The Chairman. Thank you. Very well.
    I believe I always like to move to the right.
    Senator Dodd. No one has ever questioned that, Mr. 
Chairman.
    The Chairman. Sir, you had to pronounce your name for me 
and I apologize for that. Mr. Menoyo, we will recognize you 
first and then we will move along to my right.
    You are recognized.
    Senator Dodd. Mr. Menoyo, the chairman has recognized you 
first.
    Mr. Chairman, he will be having this hearing translated for 
him.
    The Chairman. Very well.
    Do you need two microphones? If not, please take another.
    Senator Dodd. Why don't you use the two mikes? It will be a 
little easier for you.
    Thank you, Mr. Calzon for yielding yours temporarily.

 STATEMENT OF ELOY GUTIERREZ-MENOYO, PRESIDENT, CAMBIO CUBANO, 
     MIAMI, FL, AS TRANSLATED BY LILLIAN NIGAGLIONI, STATE 
                     DEPARTMENT INTERPRETER

    Mr. Gutierrez-Menoyo [as translated]. Ladies and gentlemen 
of the committee, honorable Members of Congress, I appear 
before you with the utmost respect and humility. For those of 
you who do not know me, I assure you that I am a man absolutely 
committed to the concepts of freedom and democracy.
    I am a Cuban due to conviction and through merits earned 
during the long and painful struggle against a dictator named 
Battista.
    In the year 1959, I was the first revolution commander who 
entered Havana. It was a popular triumph, full of joy and hope.
    I had led the second guerrilla front based in the central 
mountains of the island with over 3,000 rebel soldiers under my 
command. My brother, Carlos, had died heroically in the 
struggle against Battista.
    My childhood had been marked by love for freedom and 
democracy. When the revolution triumphed, when I entered 
Havana, I was 25 years of age and these two terms were not new 
concepts to me or mere words with little meaning.
    Freedom and democracy, the high price of sacrifice and pain 
that one must pay to obtain them--when we felt that the 
revolution was not inclined to honor these concepts, at least 
in the way that we understood them, we broke with the 
Government of Fidel Castro.
    This is, in part, my background. Today, as you know, Cambio 
Cubano, the organization I represent, advocates a peaceful 
solution on the island and it believes that, for this to occur, 
it is essential that Washington policy change vis-a-vis Havana 
and that there be a change in the policy of Havana vis-a-vis 
Washington and vis-a-vis Cubans themselves.
    Members of this committee, you who are again reviewing 
United States policy vis-a-vis Cuba, let us not fool ourselves. 
This shows that this policy has flaws and fundamental errors 
inherent in it, even for those who have defended the 
strengthening of the embargo.
    But I will say, further, 40 years of isolation have failed. 
So, if you allow me, I will ask you what do we come here to 
do--to multiply ad infinitum the suffering of 11 million 
Cubans, to please a given lobby increasingly less powerful and 
more discredited in southern Florida?
    You may have heard, you will hear the painful voices of 
some of my fellow countrymen--some of them respectable, 
although I think they are wrong, and others of questionable 
independence.
    My fear is that out of this exercise in cacophony, we will 
return to the same policy of freezing which has only managed to 
attain two things. On the one hand, one is to give a very 
cunning politician, Fidel Castro, a great excuse; on the other 
is to allow him, shielded in this pretext or excuse, to prolong 
his control of the island.
    This hearing takes place at a decisive moment. Cuba is in 
the midst of a social and economic crisis. It is perhaps the 
worst political moment for the Cuban Government. After seeming 
signs of opening after the hopeful visit of the Pope, there is 
an increased pressure against certain sectors of so-called 
dissidents.
    There is, on the one hand, the reality of this conflict, 
and, on the other, the interested desire of some to amplify 
this episode.
    If there is a political desire to connect these facts with 
the desire to promote the need for confrontation, it seems to 
me that this committee will have to watch for the best 
interests of the United States.
    The confrontation is not desirable for the United States, 
nor is it desirable for anybody. If it is desirable for 
somebody, perhaps it would be for the Cuban Government, whose 
excuse would be furthered. In the expression ``if we become 
entrenched,'' if we do not allow any opening, it is precisely 
due to pressure from Washington.
    I appear before you so that my testimony might be useful in 
terms of a solution to the United States-Cuba conflict as well 
as a favorable solution for all Cubans.
    Members of this committee, because I seek for my testimony 
to be useful, I have decided to make here some disclosures as 
far as my prudence will allow me to do so.
    In June 1996, I was received in Havana by President Fidel 
Castro. This unusual encounter, apparently between two 
opponents to the death, turned into a frank dialog in which 
Castro disclosed some of his wishes, preoccupations, fears 
regarding what a political opening would involve in the island. 
But he left the door open to a serene and responsible diplomacy 
by Washington.
    Those policies vis-a-vis Cuba since 1959 have not been 
exemplary. They have been characterized by a clear 
confrontation, paved with undercover operations, attempts, and 
conspiracies of different sorts.
    This is in the public domain.
    Castro said that he feared that this policy would be 
continued through other means. He is very cunning.
    In recent weeks, we have been able to read reports that are 
significant and revealing in the press of this country. How 
much did United States authorities know regarding the danger 
involved in the flight of small aircraft over Cuba? Why were 
they authorized to fly over Cuba? What was intended and 
promoted with these risky provocations? Then why is there such 
an explainable synchronism between here and there?
    With the downing of the planes--a crass mistake by Havana--
there came to an end what we had achieved during our first 
meeting with Castro. It was said that it would be possible for 
a political space to be opened for Cambio Cubano. First an 
office would be opened and then we would see.
    The downing of the planes brought with it the signing of 
the Helms-Burton law. It was unavoidable.
    Excuse me, Mr. Helms and Mr. Burton, your law is an insult 
to Cubans. It offends the world and it places this country in 
the face of a paradox: how to change the Cuban Government with 
a law which serves as an instrument to invoke nationalism and 
perpetrate itself in power?
    Constructive rapprochement was, is, and will be always the 
best way out in conflict.
    Fidel Castro is awaiting clear signals to initiate an 
effective and serene diplomacy where it is clear that the 
United States renounces in words and deeds to any desire of 
hegemonic dominion over Cuba. Believe me, this is what he feels 
and this is what he wants.
    And listen to me. I do not speak as a Cuban ambassador. I 
did not participate in the Moscow alliance nor in political 
killings. I have never been an instrument of the U.S. policy.
    So, I am a Cuban of absolute independence, so much so that 
I rejoice in the thought of one day democracy reigning in Cuba, 
a day when Cubans and Americans will see themselves as good 
neighbors, without the fear of turning into masters some and 
some into servants.
    Is this possible? We know that it is. But it is possible 
only leaving aside failed meddling policy. A little bit ago, a 
group of well known Republicans and Democrats proposed the 
creation of a bipartisan committee to assess the state of a new 
United States policy vis-a-vis Cuba and the possibility of 
seeking new alternatives therein. We support this initiative, 
which we thought was encouraging.
    Is it possible to change the mindset of the most 
recalcitrant people? Yes, it is possible. In 1949, a young 
politician named Richard Nixon criticized the Truman 
administration and Democrats in general because they allowed 
for the defeat of the Chinese Nationalists.
    I invoke the name of Richard Nixon, because his position in 
favor of a Taiwanese Government and his radical opposition to 
Communist China could not foresee what, in 1971, would be a 
true foreign policy feat headed by Henry Kissinger, who today 
is asking for a bipartisan committee or commission on Cuba.
    In passing, I recall that the same Richard Nixon left in 
his memoirs a clear advice on the need to modify the foreign 
policy of the United States vis-a-vis Cuba.
    The United States, through a rhetoric of confrontation and 
through its laws--first the Torricelli and then the Helms-
Burton law--insists on the need to promote in Cuba a civil 
society.
    The elements of harassment of such laws, however, tend to 
create conditions that would lead to internal conflict. What is 
the object? Is it a repeat of the events of Hungary of 1956? To 
make matters worse, the most recent law even violates the most 
elementary standards of extraterritoriality vis-a-vis other 
countries.
    The Chairman. I believe you have had your say, sir. We will 
have further exchange. But I want the other witnesses to be 
heard from, too.
    If you would, translate that for him, please. He is 
preaching now.
    Mr. Gutierrez-Menoyo. Thank you very much.
    [The prepared statement of Mr. Gutierrez-Menoyo appears in 
the appendix on page 31.]
    The Chairman. Mr. Calzon.
    Senator Dodd. Why don't we do this, Mr. Chairman? Why don't 
we take the balance of his statement and make sure it is 
included in the record.
    The Chairman. We will be glad to do that.
    Senator Dodd. Then maybe when we get to the questions, we 
will have some for him.
    The Chairman. Yes.
    Mr. Calzon, you may proceed.

  STATEMENT OF FRANK CALZON, EXECUTIVE DIRECTOR, CENTER FOR A 
                   FREE CUBA, WASHINGTON, DC

    Mr. Calzon. Thank you, Mr. Chairman, members of the 
committee. I am delighted to see not only Senator Helms, but 
Senator Dodd and Senator Hagel here.
    I would like to take this opportunity, since I have not 
been successful until now, to ask Senator Dodd for an 
appointment. I would love to come by and see you at some point 
to talk about Cuba.
    Members of the committee, my name is Frank Calzon. I am 
here on behalf of the Center for a Free Cuba, an independent, 
not for profit, organization based in Washington. I will not 
waste any of your time telling you about my life.
    I have spent more than 20 years as a human rights activist. 
I would like to add, however, since I am sure Senator Dodd did 
not know when he made the previous presentation, that another 
witness here, Mr. Zuniga, spent 19 years in Castro's prisons. 
Although it is not as long a term as the 21 years of 
Commandante Menoyo, I think he also deserves some recognition 
by the committee for his suffering in Castro's prisons.
    I will depart from the statement very briefly to say what I 
am not going to say here.
    I am not here to question the integrity of any other 
witness nor to drag the committee into the exile politics of 
south Florida, nor to blame the United States for the suffering 
of the Cuban people, nor to transmit any messages from Castro 
to the United States Congress. I think the American people, the 
United States, have very able diplomatic representation in 
Havana, and they can certainly do that.
    Now I would like to move on to my statement.
    For almost 40 years, Castro's abuses have been reported by 
Amnesty International, Americas Watch, Freedom House, and many 
other organizations.
    Since 1976, with the founding of the Cuban Committee for 
Human Rights in Havana, many Cubans have risked their lives and 
their freedom to report details of government repression to the 
outside world. They continue today their noble and courageous 
work, despite ever-increasing hardship and harassment.
    The growing body of irrefutable evidence that they have 
gathered has been echoed by many world leaders, including John 
Paul II.
    With the visit of the Holy Father to Cuba a year ago, there 
was great speculation, including here in the Congress, that the 
human rights appeals of foreign leaders were about to bear 
fruit and that Cuba would abandon its cold war stance.
    The Holy Father called on the Cuban authorities to release 
political prisoners, to allow them to remain in Cuba, to work 
for a national dialog of reconciliation, to permit the 
emergence of civil society and the rule of law, to acknowledge 
the role of parents in the education of their children, and to 
allow the Church to play a role in that education.
    To date, Castro's response has been very discouraging.
    Some political prisoners were released and forced into 
exile in Canada. Also, by the time the Pope arrived in Cuba, 
the four prominent dissidents who authored the critical 
document ``The Motherland Belongs to All,'' had been imprisoned 
without trial for 6 months. The ``Havana Four,'' as the 
Washington Post calls them, are the following:
    Marta Beatriz Roque is an economist, who, according to the 
New York Times has been denied adequate medical attention for a 
serious breast condition.
    Rene Gomez Manzano is an attorney disbarred for defending 
political prisoners who was honored by the American Bar 
Association in 1997.
    Vladimiro Roca is a leader of a social democratic 
organization and the son of a prominent leader of Cuba's 
Communist Party.
    Felix Bonne Carcasses is a black teacher who was expelled 
from his college-faculty post for pro-democracy activism.
    Their 1-day trial on charges of sedition was held 19 months 
after their arrest and 14 months after the Pope's visit. The 
government has called for a 6-year sentence for Roca and 5 
years for the others.
    Presently, they await sentencing.
    The trial has resulted in an outpouring of concern 
worldwide. The Economist, in a recent editorial, said that the 
trial confirmed Castro's ``unwavering addiction, after 40 years 
of power, to the basics of Stalinism.''
    The trial came in the wake of a series of draconian 
statutes imposing sentences of up to 20 years for sending 
information abroad, information about human rights violations, 
information that could be sent to this Congress or to Amnesty 
International or to other international organizations.
    The current cycle of repression, however, began shortly 
after the Pope left Cuba.
    Human Rights Watch, in its latest report, the ``World 
Report for 1999'' says ``As 1998 drew to a close, Cuba's 
stepped up prosecutions and harassment of dissidents, along 
with its refusal to grant amnesty to hundreds of remaining 
political prisoners or reform its criminal code, marked a 
disheartening return to heavy-handed repression.''
    Amnesty International, already on record during 1998, 
continues to issue appeals on Cuban cases.
    On January 22, it focused on the case of Jesus Diaz 
Hernandez, 24 years old, a journalist, who was arrested on 
January 18, 1999, and sentenced the following day to 4 years in 
prison for ``dangerousness.''
    Amnesty quotes the Cuban penal code. For you who write laws 
here all the time, you might want to pay attention to what 
Cuban law says regarding this particular crime and how it is 
defined. The crime of ``dangerousness,'' according to Cuban 
law, is: ``The special proclivity of a person to commit crimes 
as demonstrated by behavior that manifestly contradicts the 
norms of socialist morality.''
    That is a piece of Cuban law that you might want to review 
at some point.
    Amnesty lists other independent journalists who are either 
in prison or who have been charged: Bernardo Arevalo Padron, 
Juan Carlos Recio Martinez, Manuel Antonio Gonzalez 
Castellanos, and Mario Julio Viera Gonzalez. Regrettably, Cuban 
independent journalists continue to be forced into exile.
    Then there is the case of Jorge Luis Garcia Perez. I always 
pay a lot of attention to what Senator Dodd says, particularly 
when he talks about the issue of medical shortages in Cuba 
because here is a case where the Congress potentially could do 
some good.
    According to Amnesty International, Jorge Luis Garcia Perez 
suffers from tachycardia, hypoglycemia, renal colic, and other 
ailments. According to Amnesty International, the medicine that 
his family has obtained from abroad is not delivered to him in 
prison. So the Cuban Government is denying him medicine that 
already exists in Cuba.
    I would like to ask Senator Dodd and other members of this 
committee to urge the Cuban Government to permit the family to 
deliver that medicine that is so much needed to this Amnesty 
International prisoner of conscience.
    While Castro attempts to stamp out civic opposition in 
Cuba, he continues to charm foreigners and even some Members of 
this Congress. The Washington Post, in an editorial a few days 
ago, says that Castro is achieving some success. But the Post 
warns: ``If the four''--meaning these four that we have been 
discussing--``are convicted and sentenced, it will show that 
the regime will not permit any opposition at all. What then,'' 
the Washington Post asks, ``will the international crowd have 
to say about the society-transforming power of their 
investments?''
    In a similar vein, Le Monde, the French daily, said that 
the trial has ``shattered the European illusions about Castro's 
revolution.''
    Finally, we come to the Canadians. Writing in the Globe and 
Mail, just a few days ago, Marcus Gee said that Canada's 
friendship to Cuba was a big asset for the Cuban Government. 
Then he says, ``But, despite Canada's best intentions, the 
practical effect on human rights in Cuba has been zero. Mr. 
Castro's human rights record remains the worst in the Americas. 
Cuba is still a one-party state where elections are a sham, the 
judiciary is still a tool of state oppression, independent 
newspapers and free trade unions don't exist, and more than 300 
Cubans still languish in jail for `counter-revolutionary 
crimes.' ''
    Apparently, the Canadians are beginning to see the light 
about Cuba, and I think Senator Helms and his leadership ought 
to be credited for that.
    I am afraid I might be running out of time. I will try to 
proceed quickly, Senator.
    The Chairman. Very good.
    Mr. Calzon. Given the situation with Canada, and the 
failure of Canada's constructive engagement policy as explained 
in the pages of the Globe and Mail, what can we expect from the 
forthcoming exercise in ``baseball diplomacy?''
    Let us keep in mind that Cuban athletes who question 
government policies are banned from the field. That is a fact. 
That is not an exaggeration from Cuban exiles. You can look it 
up.
    Cuban athletes, Cuban baseball players who have expressed 
independent political views are not allowed to play ball in 
Cuba.
    As was the case in Nazi Germany and the Communist Bloc, the 
regime's sports programs have a most definite political 
dimension. The Orioles mean well. They wanted to play in 
Havana. They also said that they wanted to donate the proceeds 
of the games to Catholic charities in Cuba.
    I would be in favor of that. Unfortunately, as it stands 
now, the Church will not benefit and there is even speculation 
that American sports networks will pay Castro a sizable sum, 
which is not likely to reach Cuba's poor.
    Given the sorry state of affairs, the defeat in Geneva last 
year of the American resolution condemning Castro's human 
rights abuses, the willingness of the business community to put 
narrow corporate agendas and potential profits ahead of U.S. 
national interests and those of the Cuban people, what can this 
Congress and the President do?
    First, the Congress should join Amnesty International in 
asking for the immediate and unconditional release of the 
Havana Four.
    Second, Congress should suggest to the President to urge 
America's friends, many of whom today ask the President to put 
American lives at risk around the world to defend freedom, to 
insist on the need for a United Nations investigation of human 
rights violations in Cuba.
    Third, as the administration through Secretary of State 
Madeleine Albright--to her credit--said a few days ago, the 
United States ought to reaffirm its determination to stay the 
course in Cuba until there is substantive political reform.
    Fourth, as in the case of Eastern Europe, breaking through 
the regime's censorship is paramount. I urge Congress and the 
President to review United States broadcasting efforts and 
Castro's jamming measures to provide the necessary technology 
and resources so that both TV and Radio Marti can effectively 
reach the Cuban people.
    Fifth, Members of Congress and their staffs who travel to 
Cuba and meet with Cuban Government officials should also try 
to help Castro's victims.
    Sixth, Members of Congress should urge fellow 
parliamentarians from around the world to condition their 
government's dealings with Havana on a substantial increase of 
freedom in Cuba.
    In conclusion, let me say a word about the Cuban people.
    The Cubans know about the indignities of political 
imprisonment. They know about the need for an independent labor 
movement. They are painfully aware of the insidious effect of 
segregation policies that bar them from hotels, stores, 
beaches, restaurants, hospitals, and other facilities set aside 
for foreigners. They celebrated the rebirth of freedom in 
Eastern Europe and elsewhere, and still await their own.
    The Cubans, despite what you might hear from time to time, 
are no different from the Poles, the Czechs, the Chileans, and 
many others who have freed themselves from tyranny in our 
lifetime.
    Despite Castro's repression, the Cuban people have embarked 
on a journey similar to that of the Mothers of the Plaza de 
Mayo, the people power movement in the Philippines, the 
students who gathered around Vaclav Havel, the workers who 
joined Lech Walesa's Solidarity in Gdansk, and to that of 
Americans who joined hands with Dr. Martin Luther King, Jr.
    Thank you very much.
    The Chairman. Thank you, sir.
    Now the third witness is Ms. Ruth Montaner, who is a 
representative of the Internal Dissident Working Group, whose 
four leaders, as I understand it, were tried last Monday for 
``inciting sedition.''
    I would ask staff to stand to the side because I want the 
hearing room to see this picture. Those four courageous 
leaders, who are pictured here on my right, have spent 19 
months--is that correct--in jail for publishing a critique of 
Castroism entitled, ``The Homeland Belongs to All.''
    Ms. Montaner, we would be glad to hear from you.

    STATEMENT OF RUTH C. MONTANER, REPRESENTATIVE, INTERNAL 
 DISSIDENT WORKING GROUP, MIAMI, FL, AND CUBAN DISSIDENCE TASK 
                             GROUP

    Ms. Montaner. Good morning, Mr. Chairman and Senators. I am 
very grateful for the opportunity to be here in behalf of the 
Cuban Dissidence Task Group.
    First of all, I would like to quote the group: ``The world 
must know that we are desperately trying to contribute to the 
peaceful transformation of Cuba from a uni-party state to a 
democratic, pluralistic society under the rule of law.''
    My name is Ruth Montaner. Along with Pablo Llabre and 
Antonio Santiago, I represent the four persons who do comprise 
the Cuban Dissidence Task Group.
    Let me tell you briefly who they are.
    Felix Bonne Carcasses, the person on the right hand side of 
the picture, is a former University of Havana professor who was 
expelled from his work when he signed a letter in 1992 to the 
Council of State demanding more academic and political freedom. 
He organized the Corriente Civica Cubana, which is kind of a 
Cuban think tank of intellectuals.
    Then on the left corner you have Rene Gomez Manzano, a very 
bright and talented jurist, who was a graduate of Patricio 
Lumumba University. Also, when he dared to oppose or present 
ideas contrary to the regime, he was expelled from his work. He 
formed then the Corriente Agramontista.
    Next there is Vladimiro Roca Antunez. He could have been a 
prince of the revolution because of his father, because of who 
he was. He chose another path. An economist and a trained MiG 
pilot, he created the Partido Social Democrata Cubano, a 
political party that has allies throughout the world.
    Finally there is Marta Beatriz Roque Cabello, the only 
woman in the group, an economist who was also expelled from her 
work at the University of Havana as a math teacher when she 
presented information as to mismanagement in some government 
groups.
    Let me tell you now what the four did.
    First of all, I am going to try to convince you that the 
problem in Cuba is not a problem between the Cuban Nation and 
the American Nation or United States policy. It is a problem 
between the Cuban regime and the Cuban people.
    These four persons, right after the Concilia Cubanos group 
was destroyed, going back to the airplanes being shot down--I 
have to remind you, gentlemen and ladies, that the day that the 
airplanes were shot down was the day that the group of Concilia 
Cubanos, that were part of 100-some organizations in Cuba, 
tried to meet to present some proposals to the Cuban Government 
for some political liberalization.
    That meeting was denied. The permit for the meeting was 
denied by the Cuban Government.
    After that, these four persons that we have here created, 
in the middle of 1996, a group that is called the Cuban 
Dissidence Task Group, and prepared a platform, a six point 
platform, asking for amnesty for the political prisoners, 
asking for participation of all Cubans in elections, for 
economic freedom, and respect for human rights, among other 
things.
    In a 4-month span in 1997, these 4 people wrote several 
documents, and the list of recipients of these documents was 
headed by Raul and Fidel Castro themselves. This indicates 
that, really, they had a purpose of trying to talk to the 
government at all times.
    Let me read just a little piece of one of the documents 
that is part of the indictment, the Cuban Government 
indictment, and is an appeal to the Cuban exiles. ``We wish to 
point out the impact that the remitants''--they are referring 
to the moneys that the Cuban community sends to the people in 
Cuba--``may have upon the silencing of the many voices inside 
Cuba who disagree with the Communist regime.''
    This letter ends, first and foremost, with the same 
peaceful framework in which we carry out our activities.
    Another of the documents they wrote in that time was the 
letter to foreign investors. It reads, ``Resolving the 
disagreement between the Government of Cuba and our citizens is 
a fundamental short-term objective. Other existing conflicts, 
such as those related to the Helms-Burton legislation, are 
beyond the limited capabilities of the internal opposition and 
even of the international community to resolve.''
    In a span of time that is becoming even shorter, there will 
be a transition to democracy in our country and this leads to 
the need for measures that will avoid a situation where current 
foreign investment may be viewed in the near future as one form 
of complicity with the wrongs that now are suffered by the 
Cuban population.
    With this in mind, the article's principles, a copy of 
which is attached, were promulgated.
    We cannot be involved in the debate as to whether or not it 
is correct to invest in Cuba. Nonetheless, it is evident that 
observers of norms of equity and cooperation in labor 
relations, as well as respect for the Cuban people on the part 
of those wishing to invest, is the best for everyone.
    A business strategy opposed, therefore, supporting 
implementation of the article's principles.
    Then they wrote a letter to the people in Cuba asking them 
to abstain to go to the elections to vote in the upcoming 
elections in that year as a sign of protest for the conduct of 
the Cuban regime.
    Finally, in June 1997, they wrote the document, ``The 
Homeland is for All.''
    I will go a little later back to that and I am going to be 
brief.
    In that document, the four asked for an internal dialog. 
They petitioned the Cuban Government for the opportunity to be 
heard. They presented a plan, how they thought it was 
incorrect, and their proposal for correcting the mistakes of 
the government to the government itself.
    For that reason, they were incarcerated on July 16, 1997. 
Just before their incarceration, they tried to hold a meeting 
with the international community to present those documents to 
the international community and to the Castro Government 
itself. In that meeting, only the Americans were there. Only 
Mr. Tim Brown and Michael Cosack were at that meeting. Absent 
was all of the international community.
    In the documents these people wrote, in the bulletins they 
wrote throughout that year and with the help of the people of 
respected groups--economists, lawyers--they repeatedly stated 
that the problems of the Cuban Nation had nothing to do with 
United States' failing foreign policy; but, on the contrary, 
they were related to the lack of democracy that exists in the 
country today.
    When the Pope visited Cuba in January 1998, everybody had 
the hope of a transformation, of a new life in Cuba. But, 
unfortunately, the facts are that repression increased 
tremendously and dramatically after the Pope visited--no matter 
the efforts of the international community that embraced what 
the Pope said: let's open up to the Cuban Nation and the Cuban 
Nation will open to the world.
    This did not happen.
    The release of political prisoners was not an unconditional 
release, but the prisoners were sent out of Cuba. They were not 
allowed to remain in the country. That is also not an amnesty.
    Then, at the end of the year, United States policy changed 
or tried to change the embargo law, and the reply from Federal 
people that head the union syndicates in Cuba early in January 
1999, indicated that that softening of the embargo measurements 
was an aggression to Cuba by the imperialist Yankees.
    So I don't know how to interpret that, really. It goes 
beyond my comprehension.
    In March of this year, they had the trial of the four 
Cubans who were accused of sedition.
    I don't know how much time I have left.
    Unfortunately, I don't have too much time, but for you 
lawmakers in a free country, to read the indictment of the 
Cuban Government against these people is a piece that probably 
those of you who read it will never forget what is there.
    In the items confiscated from them you will find computers, 
pencils, books, notebooks, and items such as pieces of paper. 
These people are incarcerated for writing, again, four or five 
documents. But not only them, the whole Cuban Nation is 
incarcerated for thinking, for trying to present a different 
approach to the problems that are in the country today than 
those that the regime offers.
    I do not see a frank solution or any solution to the 
problem, and also some organizations, such as the Federacions 
Electrica de Cuba, the Centro no Gubernamental Jose de la Luz y 
Caballero, the Partido Pro Derechos Humanos de Cuba, the Comite 
Cubano Pro Derechos Humanos, the Cuban Workers Group, the 
Partido Democrata Martiano and others----
    Senator Dodd. Our stenographer is having a very difficult 
time with these names. So why don't you submit the list and we 
will make sure it is included in the record.
    The Chairman. Exactly.
    Ms. Montaner. You have the list, and they sent you a letter 
almost reconfirming all of what has been said here.
    [The prepared statement of Ms. Montaner and related 
material has been retained in the committee files.]
    The Chairman. Thank you very much. Let's go to the next 
witness now.
    We appreciate your testimony.
    Next is Mr. Luis Zuniga, who spent 19 years in Cuba's 
prisons as a political prisoner. As president of the Foundation 
for Human Rights in Cuba, he monitors events on the island 
closely. He has testified before several sessions of the U.N. 
Human Rights Commission meetings in Geneva as a guest of the 
Nicaraguan delegation.
    We are glad you are here, sir. We appreciate your coming 
and now we will hear from you, sir.

   STATEMENT OF LUIS ZUNIGA, PRESIDENT, FOUNDATION FOR HUMAN 
                   RIGHTS IN CUBA, MIAMI, FL

    Mr. Zuniga. Thank you, Mr. Chairman.
    Mr. Chairman, distinguished members of the Senate Foreign 
Relations Committee, when addressing the issue of human rights 
in Cuba, we must start by pointing out that Fidel Castro has 
been in power for 40 consecutive years, longer than dictators 
Trujillo, Stroessner, and Francisco Franco.
    Let us also recall that Castro monopolizes all of the 
important positions in Cuba--Chief of State, Head of 
Government, Commander in Chief of the Armed Forces, and 
Secretary General of the only permitted political party.
    With this introduction, any individual, even without 
knowing anything about Cuba, would be able to easily conclude 
what Cuba has become under Castro.
    One of the first actions Castro undertook after taking 
control of political power was to establish the death penalty 
and use it extensively as an instrument of terror. There is no 
question that the most outstanding characteristic of the 
situation in Cuba is the state of terror the population lives 
under.
    This terror is not unfounded because Castro has never 
hesitated to kill or destroy anyone who opposes him and 
because, in contrast to former dictators in the Latin American 
tradition, Castro never had an independent judicial power he 
must answer to or one that could impede his arbitrary measures.
    In fact, another of his first actions in government was to 
dissolve judicial power and create a new one, submitted to him 
by law and with judges appointed by him in order to insure 
impunity.
    Note how last Friday, Cuba's foreign relations spokesman 
declared before Cuban television that the four dissidents 
recently tried were already sentenced, this without the judge 
having rendered a decision yet.
    Mr. Chairman, Castro's dictatorship is not different from 
the many others Latin America had in the past. I do not 
remember politicians asking those dictators to reform their 
systems or to allow a group to open an office. Everybody 
demanded the dictators to quit and allow democracy to reign.
    Mr. Chairman, it is truly difficult to find respect in Cuba 
for any of the fundamental rights and freedoms. In my opinion, 
the most important of those rights is that to freely choose 
one's government because, using the electoral process, it is 
possible to remove from office anyone who places himself above 
the law.
    The worst aspect of the Cuban situation is that the people 
do not have the legal right to choose their government nor to 
change the current political structure.
    Article 5 of the socialist constitution establishes that: 
``The Communist Party is the guiding force of the Cuban 
society.'' Consequently, the highest authority of the country 
is the head of the Communist Party, and that individual is not 
elected but is chosen by the Executive Committee of the Party.
    In other words, Fidel Castro chooses Fidel Castro.
    This is the primary reason why, as long as Article 5 is not 
removed from the socialist constitution created by Castro, it 
is naive to expect changes in Cuba.
    This message should be heeded by United States Senators who 
travel to Cuba and are misled by Castro with false hopes for 
change.
    Mr. Chairman, the conditions inside the prisons are truly 
alarming. In fact, it has always been so. For Castro, the act 
of confining an individual who opposes his dictatorship is not 
sufficient punishment. Castro's view is that prison has to 
succeed in submitting the will of the enemy.
    To accomplish this, he uses methods of systematic 
destruction--physical, such as hunger and malnutrition, 
beatings, and lack of medical attention, as well as 
psychological, such as walled in cells, confinement in 
psychiatric hospitals, torture with electronic sounds, and 
isolation for long periods of time.
    Fear of being imprisoned is another instrument of terror 
used by Castro to maintain the population under control.
    If there were at least a small amount of international 
concern, the request for the freedom of all political prisoners 
in Cuba would be a priority. And, by the way, it also would be 
worthwhile to call for putting an end to the usual petition of 
presidents or dignitaries who travel to Cuba asking the 
dictator to free some political prisoners because, while it is 
true that some are released, it is also true that it serves as 
an incentive to Castro to continue imprisoning individuals he 
can later give to other visitors.
    If a dignitary has a true calling to request the release of 
prisoners, let it be the release of all political prisoners.
    As a case in point, Dr. Omar del Pozo, freed a year ago 
following the Papal visit. His place is now occupied by the 
four authors of the manifesto, ``La Patria es de Todos,'' ``The 
Homeland Belongs to All Citizens.''
    Mr. Chairman, another terrible aspect of Cuban life is 
political discrimination. Under Castro, to be allowed to study 
beyond the elementary school level or to obtain a job, one must 
belong to the political organizations the government has 
created as its own support system. In fact, Decree 34, 
effective on March 12, 1980, establishes that political conduct 
is one of the considerations to fire an employee. In fact, any 
individual who is not a member of those organizations or 
refuses to participate in the activities in support of Castro 
and his dictatorship simply becomes a third class citizen, 
jobless and uneducated.
    There is another level of discrimination, that of Cubans 
versus foreigners. The latter are allowed to own business 
entities, engage in commerce, import and export, while those 
same activities are prohibited to Cuban citizens.
    A similar situation prevails in segregated hotels, beaches 
and stores that prohibit access to Cubans. As far as I am 
aware, there is no comparable case of blatant discrimination in 
the Western Hemisphere.
    The infamy behind the dual health care system in the island 
is also well known. But I want to emphasize what occurs with 
foreign investments in Cuba because, aside from the fact that 
many factories, warehouses, and industries have been stolen 
from their rightful owners, Fidel Castro is violating numerous 
labor standards accepted by Cuba in the International Labor 
Organization, such as the direct hiring of workers by the 
employer without government interference, the prohibition that 
workers be allowed to organize independent labor unions to 
defend their rights, and the abominable practice of 
confiscating up to 95 percent of the salary they receive.
    If Fidel Castro is responsible for this peculiar mix of 
exploitation and arbitrariness, the disreputable businessmen 
that confabulate with Castro against the Cuban workers are just 
as responsible by accepting to do business under such 
conditions.
    It is very worrisome that executives of American companies 
are putting pressure on Congress to lift the restrictions that 
prohibit them from doing business in Cuba when such commerce 
would take place under the same adverse conditions for Cuban 
workers as those that exist today under other foreign investors 
in Cuba.
    A clear example of the dangers implicit in the issue of 
investments in Cuba was evident when recently the attorneys of 
several American telephone companies sided with Castro when a 
Miami judge decided that the funds that were destined for Cuba 
as payment for telephone services would be diverted as 
compensation to the families of the American pilots who were 
killed when Castro's armed forces destroyed their aircraft over 
international waters in 1996.
    Doubtlessly, companies who enter into business with the 
Cuban dictator will ultimately oppose any United States measure 
that seeks Cuba's freedom which would, of course, disrupt their 
flow of profits. In this sense, it is alarming how it is 
becoming increasingly clear that this administration intends to 
follow a policy of engagement with regard to the Cuban problem.
    The complete failure this policy has had in China is a fact 
which government officials have tried to conceal. This policy 
should serve to dissuade the administration from pursuing such 
purposes in Cuba, lest it results in a more grave mistake.
    What changes has engagement produced in China in terms of 
repression against dissidents or recognition of fundamental 
rights? None--or, actually, one. This is one completely 
contrary to what was desired, and that is the silence of 
government authorities concerning imprisonments, lengthy 
sentences, and forced deportations.
    Robert Kegan, a reporter for the New York Times, mentioned 
in a January 15 article that: ``They''--the American 
officials--``were wrong and they have paid dearly. China's 
leaders seem confident that they will pay no significant price 
for the crackdown and that President Clinton will tolerate 
almost any misbehavior rather than change his policy of 
engagement. So far, they are right. President Clinton has been 
silent.''
    It really is not my desire to be critical of the 
administration, but it is my duty to point out potential errors 
which can still be avoided. Let us not forget that errors here 
are only that--errors without further consequence than 
criticism. But for Cubans on the island, those errors can cost 
lives and years of imprisonment.
    Apparently, common sense prevailed some weeks ago, and the 
plans to create a commission to review United States policy 
toward Cuba were discarded. It was a good thing, too, because 
the phrase ``review'' was redolent of engagement and of 
economic profit over human suffering.
    What the policy toward Cuba needs is enforcement. If the 
embargo, the Helms-Burton bill, and the efforts to get allies 
to place pressure on Castro to open Cuba are the instruments, 
then, please, enforce them.
    It looks like a joke to say the policy has failed when it 
is not really implemented.
    Mr. Chairman, I lived for 30 years in Castro's Cuba, 19 of 
those years in prison. I can assure you that Fidel Castro will 
never make the slightest concession in favor of democracy. 
Through the years, Castro himself has consistently said so.
    It is inconceivable that after four decades of crimes and 
destruction, some are still trying to find in the dictator a 
vestige of democracy or human feeling.
    What Castro wants and is actively seeking is an 
understanding with the U.S. Government, a government to 
government deal, based on mutual interests but that will not 
affect his control and tyranny over the island--something quite 
different from what the friends of the cause for democracy in 
Cuba wish.
    It is the money and the credits with which to finance his 
dictatorship that he is after.
    How many years more do politicians need to realize that 
Castro just wants everybody to bend and submit to his will and 
ego?
    Finally, Mr. Chairman, the logical and necessary question 
is how can the United States help Cuba move toward democracy? 
To me, the answer is clear: Castro's power is based on terror 
and that terror relies on maintaining the enormous military 
repressive apparatus that enforces it. If Castro's resources 
are cut or reduced, he is obliged to downsize that apparatus 
and that would give the people of Cuba an opportunity to remove 
the dictatorship, or at least obtain a reprieve in the 
repression.
    Thank you very much.
    The Chairman. Thank you very much.
    The time being what it is, I had hoped that we could have a 
little bit more time for questions, but we are running over. I 
suggest that we have a round of 7 minutes each.
    Please do not make a speech and then ask a question after 
the caution light is on. Of course, that's not you [indicating] 
and not you [indicating]. You have never done that.
    About this baseball game, ladies and gentlemen, I had been 
led to understand that the administration was going to insist 
that the proceeds from the game go to the Church in Cuba, the 
Catholic Church.
    Now I am about as strong a Baptist as you ever saw, but I 
thought that was a good idea.
    Now the administration appears to be backing off on that 
position. If anybody will, send word to the administration that 
one guy on this committee fervently hopes that the 
administration will return to and restore their original 
position on this.
    The Treasury Department said that ESPN has asked to travel 
to Cuba to explore arrangements with the Cuban Government to 
broadcast the baseball game on March 28.
    It is not yet known whether ESPN will request to pay for 
the broadcast rights or how the money will be divided. But the 
rumor is that Castro has turned down, thumbs down, on the money 
going to the Church after a preliminary agreement had been 
entered into by him and others.
    Now we need to know exactly where we stand on this thing. I 
am not saying that the Orioles cannot go or that I am going to 
try to stop them. But I am going to appeal to the baseball 
players on the Orioles to examine their own consciences about 
whether they ought to go under the circumstances that the 
proceeds will go to Mr. Castro.
    Now if he is going to get the money, it is a different 
proposition, as far as I am concerned, and I will oppose 
personally their going. I certainly hope that the management of 
the Orioles and the players on the team will examine the whole 
aspect, including their consciences.
    Now, then, I would have a question for Mr. Calzon. Have the 
embassies of the European Union countries been active in 
supporting dissidents?
    Mr. Calzon. Senator, as you know, I am here on behalf of 
the Center for a Free Cuba. I cannot speak for other 
governments.
    But my understanding is, for example, that at this juncture 
the Italian Government has expressed great concerns about what 
is happening in Cuba. The same thing applies, to his credit, to 
the Canadian Foreign Minister at this time.
    In the past, the help or access to Cuban dissidents in Cuba 
by other missions, besides that of the United States, has been 
limited. But it is a fact that there are several democratic 
governments that have, at least, opened their doors to the 
human rights activists and to the families of political 
prisoners.
    The Chairman. Do you know of any embassies which have been 
active in trying to help the dissidents?
    Mr. Calzon. I do, Senator. But I do not think in an open 
hearing it makes a lot of sense to point out who they are. 
Otherwise, the Cuban Government will make life even more 
difficult.
    As as you probably know, the Cuban Government broke into 
the U.S. diplomatic pouch a couple of years ago. One piece of 
evidence presented by Havana, I am sure the Senators have read, 
is George Orwell's ``Animal Farm.'' The Cuban Government 
considers Orwell's books subversive so, too, the Universal 
Declaration of Human Rights.
    So as far as foreign governments are concerned, I think it 
would be very helpful for the committee to contact some of 
their diplomatic missions in Washington and get a better 
appraisal than I can provide about what they are willing to do.
    The Chairman. Let me ask the other two of you, because all 
three of you--he [Mr. Gutierrez-Menoyo] doesn't think we ought 
to do anything--seem to be more together.
    What more could our Government do in our interest section 
in Havana to help the dissidents or independent journalists 
that I referred to earlier?
    Mr. Calzon. I have something to say. I think one important 
thing is that all the members of the committee, I would assume, 
are in favor of baseball games.
    I remember as a child in Cuba watching the World Series on 
Cuban TV. That was accomplished thanks to a Cuban airplane 
placed on the Florida Straits, which enabled the Cuban people 
to watch the game.
    So those who support the Orioles playing in Havana ought to 
support a C-130 in the Florida Straits that will make it 
possible for TV Marti to be seen in Cuba at all times, so that 
Cubans can watch not only one baseball game, but TV Marti on a 
regular basis.
    The Chairman. But do you have any suggestion about other 
things that our country should do?
    Mr. Calzon. Yes, Senator, and I mentioned some of them 
briefly in the testimony.
    The Chairman. Then be brief because I want to hear from the 
others, too.
    Mr. Calzon. Yes.
    I would urge those, particularly those who favor 
constructive engagement or who have been talking about medical 
supplies, such as, I think, Senator Hagel and Senator Dodd, to 
raise these kinds of issues with the Cuban Government.
    You have a lot more influence than certainly those of us 
who are critical of the regime. It makes a lot of sense, to me 
that you approach the Cuban Government and say that, as long as 
these four people are in prison, as long as the rapid 
deployment brigade are going around beating up dissidents, 
innocent people, very little is going to be accomplished.
    Now I'm not talking about free and fair elections under 
international supervision. I am simply saying, asking that you 
say to the Cuban Government, to the people you talk to all the 
time, that as long as they go around beating up dissidents--
mothers, children--as long as they have these people in prison, 
that they are not going to have a lot of constructive 
engagement from the United States side.
    The Chairman. Very quickly, do you have a quick suggestion? 
I want to enforce my own time rule on me.
    Ms. Montaner. Increasing support to the Cuban dissidents--
not to the group, but to Cuban dissidents in general and to the 
journalists.
    I have one comment, one short comment.
    In 1936, in the Olympic Games, people from the German 
Republic will have forever a footnote that they attended the 
games for the national regime. These baseball players will have 
such a footnote on their resumes for the rest of their lives.
    It is very insensitive in their behalf and in the Orioles 
owners' behalf to go at such a time when 94 persons were 
arrested in 1 day.
    The Chairman. Thank you very much.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman.
    Again, let me thank our witnesses for being here today and 
for expressing their views.
    I do not think there is any disagreement in terms of the 
issue of these four who are being tried. I appreciate your 
testimony on that, that this is a violation of human rights 
down there and that people feel strongly about it and have 
expressed themselves on it. Also, other governments have done 
so as well. Governments that have diplomatic relations with 
Cuba have expressed themselves on the issue.
    So I do not think there is much debate, at least there 
should not be much debate, on that particular issue. But what I 
think could be valuable here--because, as I said at the outset 
of my remarks--is too much of our policy over 40 years has been 
based on action/reaction, action/reaction. Any suggestion or 
any efforts to try to find some different way to improve the 
situation in Cuba is met with, at least in many quarters, with 
significant hostility, including the proposal, I gather, the 
three of you would be opposed to. This is the proposal for the 
Orioles to go to play in Havana.
    Is that true? Why don't you just give me a quick answer to 
that, yes or no.
    Mr. Calzon, do you oppose the Orioles going to Cuba?
    Mr. Calzon. No. I am in favor of it as long as the proceeds 
go to the Catholic Church.
    Senator Dodd. But there are not any proceeds from that 
game. Aren't the proceeds really going to come when they play 
in Baltimore? That is more likely where the proceeds will come 
from.
    Mr. Calzon. Senator, if you are in favor of the Orioles 
going to Havana, I assume that you have a moral responsibility 
to speak out against the fact that some Cuban athletes are not 
allowed to play due to their political views.
    Senator Dodd. You're not answering my question. Let me ask 
the question and you can answer it for me. I listened to you 
very patiently during your testimony.
    Mr. Calzon. Yes, sir.
    Senator Dodd. You are in favor of the team going down? I 
just want to get a quick review. Yes?
    Mr. Calzon. I am not against the team going to Havana.
    Senator Dodd. How about you, Ms. Montaner? Are you in favor 
of the Orioles going down to play in Havana?
    Ms. Montaner. At this time, I believe it is very 
insensitive in their behalf to go now. And I am all for 
establishing peoples to peoples contact, to increase that. Yes.
    Senator Dodd. OK.
    Mr. Zuniga, are you opposed to them going down?
    Mr. Zuniga. Yes. I am opposed because it is a tragedy. At a 
time when Cuba has so many deaths, prisons, and so on, being in 
a joyful way, playing baseball as if nothing happened in Cuba--
no.
    Senator Dodd. I understand. I just want to get your views.
    How did you feel about the Pope going there? What was your 
initial reaction, the organization's reaction to the Pope going 
there?
    Mr. Zuniga. He did very good. Very good. The Pope's visit 
was a shower of spiritualism to the Cuban people.
    Senator Dodd. Were you in favor of him going down there 
initially, the Pope? Were you in favor of the Pope's visit?
    Mr. Zuniga. Of course.
    Senator Dodd. All of you were?
    Ms. Montaner. Yes.
    Mr. Calzon. Yes, I was.
    Senator Dodd. Your organization, Mr. Calzon, the Center for 
a Free Cuba, how much money do you receive from the United 
States Government?
    Mr. Calzon. We have a grant that is about half of our 
budget, $400,000, similar to those allocated to promote 
democracy in Poland, the Czech Republic, and in many other 
places around the world, Senator.
    Senator Dodd. All right.
    I wonder if you might just quickly comment on the notion of 
how we might begin to change the dynamic here because that, to 
me, is what is critically important. We have relationships with 
governments around the world, many of which do not embrace 
Jeffersonian democracy. You mentioned China and Vietnam. There 
are other governments that have monarchies that are far less 
than democratic. I can think of governments in the Middle East 
with whom we have major economic relations which do some things 
that violate human rights all the time.
    Certainly we speak out periodically. But it seems to me we 
have to get beyond that in our bid if we are going to try to 
create some sort of transition that occurs here.
    What do you say to those who raise the issue--and try to 
keep your answers brief on this because I only have 7 minutes? 
What is your answer to those who say after 40 years of a 
policy--37 years, 38 years--of an embargo, where the conditions 
have not improved by maintaining a policy of isolation, where 
those who have even suggested going to Cuba and trying to 
develop any opening here, where nothing has changed?
    We make the case in Eastern Europe and other places where, 
in fact, a policy of constructive engagement did, at least, 
contribute to creating some change that brought about the 
results we see today in Eastern Europe and elsewhere.
    How do you answer the question that a consistent policy 
that we have followed for 40 years has not produced anything 
but the status quo and your insistence that we maintain that 
policy here without any change?
    Mr. Zuniga. If you would allow me to answer----
    Senator Dodd. Sure.
    Mr. Zuniga. I think it is a mistake to say that the U.S. 
embargo has failed. I have proof--I am not talking about my 
opinion, I am talking about proof. The year 1991 was when 
intervention stopped. From that time on is when we can measure 
the impact of the embargo because, formerly, Castro was 
receiving $3 billion a year and he could waive off any economic 
measure.
    From then on, 1991 to 1995, the Cuban Government assessed 
that they reduced 48 percent of their military budget--48 
percent. Besides, here, in 1997, dismantling of her navy 
occurred. Cuba has no navy now. They were sinking missile boats 
worth $24 million.
    Do you know why? It is because the embargo is working.
    If the United States were not doing that, Castro still now 
would be a threat to the United States. Thanks to the embargo, 
Cuba is not a military threat to the United States.
    Besides, the dollarization of the Cuban economy, the slight 
opening of cracks in Cuba, are the result of Castro's 
willingness. Is Castro prone toward democracy? No. It has been 
the economic pressure that has done this.
    It's the same way that it worked in the Soviet Union, the 
same way it worked in Eastern Europe. It's because of the 
economic cracking. Otherwise, they would not bend.
    Their purpose is quite clear, to stay in power as long as 
possible and to have everybody submitting to them. Only when 
they lacked the resources to maintain their control did this 
happen.
    Senator Dodd. Thank you. Let me get to another witness.
    Ms. Montaner. I going to reply with a question: can anyone 
show me what improvements we have made with an engagement 
policy that has been in effect for the past 14 months? The only 
thing we see that we can observe is an increase in the 
repression on the island. Besides the codes they had there, 
they thought they were not enough and they imposed new 
sanctions.
    It is the only country in the hemisphere where political 
problems are in the code, in the penal code, described as 
offenses to the Nation. Can you tell me what the engagement has 
done to alleviate that condition? Nothing. So both policies 
have failed--so far.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. I, too, wish to 
thank our witnesses for coming today and expressing their 
views.
    Thank you very much.
    I have a question that I would like each of you to answer.
    Mr. Menoyo, you have gotten off lightly so far. So I don't 
want you to feel neglected at your end of the table. The 
question is for each of our four witnesses.
    In your opinion, what does the recent crackdown tell us 
about Castro's regime? Does it mean his regime is weaker, 
stronger, or does it make any difference?
    Mr. Menoyo.
    Mr. Gutierrez-Menoyo [as translated]. It means, first, that 
it is the same dictatorship as ever. Second, it means that they 
feel cornered by a policy from the United States.
    I wish to clarify to all of you since mention has been made 
here of human rights violations, that I, who have spent 22 
years in Cuban prisons, can assure you that there is no 
violation of human rights in Cuba because there cannot be a 
violation of what does not exist.
    Senator Hagel. Thank you.
    Mr. Calzon.
    Mr. Calzon. I think what it means is that the Castro regime 
has begun to be more fearful of the Cuban people. The Pope went 
to Cuba and told the Cubans not to fear. They have begun to 
speak out.
    But I think the day Cubans begin to speak out, then the 
folks here in the Congress will have a responsibility, and that 
should not be to make Cuba an exception to the policy of the 
President for this hemisphere. We hear about China, we hear 
about the Middle East. In this hemisphere, the President's 
policy is to promote democracy everywhere--in Haiti, in Central 
America, and in Chile. Cuba should not be an exception, 
Senator.
    Senator Hagel. So you would say--what--that this recent 
crackdown has made things--what?
    Mr. Calzon. I think the crackdown is part of a long-term 
repression of human rights in Cuba. It also shows that the 
policy of engagement, as well as the policy of sanctions, has 
not worked. This is because there have been two policies in 
place for 40 years. Let us remember that. Canada, France, 
Mexico, and the others have had a policy of engagement, of 
accommodating Castro, of not conditioning things, of dealing 
with him, of trying to find reasons to blame the United States 
for his crimes. So this policy has failed.
    So let's not blame the Canadians for what Castro does to 
the Cuban people, nor blame the United States. It is Mr. Castro 
who is responsible.
    Senator Hagel. So is he stronger or weaker?
    Mr. Calzon. I think he is much weaker now than he was 40 
years ago when the overwhelming number of Cubans supported him. 
I think today he is stronger in the sense that some of his 
friends have found their voices to try to blame the United 
States. Every time Castro does something terrible, the occasion 
is used to try to blame U.S. policy.
    Senator Hagel. Thank you.
    Ms. Montaner.
    Ms. Montaner. The crackdown is one of the symptoms of the 
breakdown. The corruption, the criminality index increasing, 
these are symptoms, that in most organizations people are 
giving up their ID cards; people are not going to the meetings, 
the regulated meetings. These are signs of the breakdown in the 
government. The support of the socialist allies they had 
throughout the world is weakening by the moment.
    As I was coming here yesterday night, the President of the 
Senate in the Republic of Dominica told us that they are going 
to make a strong statement today criticizing Castro for this 
new wave of repression.
    Yes, he is weakening and he is more dangerous than ever.
    Senator Hagel. Thank you.
    Mr. Zuniga.
    Mr. Zuniga. For me it is quite clear. Castro is terrified 
by looking at the power that is dripping through his fist. He 
is looking at his power terminating.
    Remember that in the Soviet Union, nobody could envisage 
that it was so close to being cracked down. And it happened. 
Castro is in the same pattern. He knows that his power is 
ending, that he has no more resources to maintain the terror 
that he maintained. And, besides, there are deep, profound 
cracks inside his dictatorship's apparatus.
    So I think that is an evidence of his fear of what is about 
to come.
    Senator Hagel. Do you believe before the recent crackdown 
that there was more independence by journalists, independent 
groups, than there is now?
    Mr. Zuniga. Well, to speak or to say something about 
freedom or independence in Cuba is quite difficult.
    Senator Hagel. Well, it is relative, obviously.
    My question is has there been more or less since the 
crackdown?
    Mr. Zuniga. Indeed, there is more because the international 
pressure is now awakening. So, for example, even Communists, as 
in Italy, are now criticizing Castro. Samarago, the Nobel Prize 
winner, also a Communist, is also criticizing Castro. The 
socialists in Chile are also criticizing Castro.
    I know that is why there is a widening. There is now more 
relaxation inside because he cannot keep the fist so tight as 
he did before.
    Senator Hagel. Does Mr. Menoyo share that view?
    Mr. Gutierrez-Menoyo [as translated]. I feel that in Cuba 
we can speak of tolerance. There was a bit more tolerance 
before, because, without question, Cuba envisages the 
possibility of improving relations with the United States. When 
this possibility disappears, tolerance disappears as well.
    Senator Hagel. I think my time is almost up. To be in full 
compliance with the chairman's wishes, I yield the floor.
    Thank you.
    The Chairman. Senator Torricelli, you can take 8 minutes.
    Senator Torricelli. Thank you, Mr. Chairman.
    I want to spend one of them complimenting you. The most 
important thing about the improvement of human rights and 
bringing political change in Cuba is that Castro will never be 
able to convince himself that people are no longer watching. 
Your holding this hearing is invaluable and we are indebted to 
you.
    I want to thank Mr. Zuniga for his spirited defense of 
American foreign policy through these years. You are quite 
right that the American embargo on Cuba has had very real, 
lasting, and tangible benefits.
    The Cuban army, air force, and navy are a fraction of their 
former selves. Ironically, the dollarization of the economy, 
Castro's reversal of his position of allowing phone service, 
perhaps now mail service, even the greatest irony of all, I 
suspect, his invitation to the Pope, he would have found far 
too dangerous if he had not been under the economic and 
political pressure of the embargo.
    The only point that might have been added is that, indeed, 
the embargo is not 40 years old. It is 6 years old because, 
until we eliminated trade through Western Europe, it was an 
unfulfilled promise of an embargo. It had no real meaning.
    I greatly regret that the Clinton administration some 
months ago, following its predecessors, convinced itself in a 
triumph of hope over reality that further concessions to Castro 
would yield some result. It is a painful lesson that Jimmy 
Carter learned, that I believe George Bush learned. But Bill 
Clinton had to learn it for himself.
    Can anyone cite, based on the concessions that the Clinton 
administration made, any action by Castro that indicates that 
we are entering into a reciprocal process where he has 
recognized the changes of our policy and he is prepared on any 
level to institute changes of his own?
    Mr. Calzon. I think part of the answer that sometimes is 
heard, Senator is that Castro is willing to talk to some 
American Senators and even to some exiles. But he does not 
allow the Cuban people to talk among themselves. That is the 
real issue.
    The issue is not whether the Cuban Government talks to some 
of you or the Cuban Government talks to some Miami exiles who 
visit Cuba. The issue should be whether the Cuban people in 
Cuba, as it occurred in South Africa, Chile, Poland, and 
elsewhere are permitted to meet peacefully in order to find 
solutions to the problems of the country.
    Senator Torricelli. So you share the conclusion, then, that 
Fidel Castro gave Bill Clinton nothing for the administration's 
concessions on trade and travel.
    Mr. Calzon. Castro, I am afraid to say, perceives those 
concessions as signs of weakness on the American side.
    Senator Torricelli. Let me go further.
    I know that the Holy Father went to Havana with the very 
best of intentions. I believe, indeed, that 30 or 40 priests 
are going to be allowed to follow.
    I actually believe that, historically, the Pope's visit may 
have profound consequences. I have always believed that, 
whoever the next leader of Cuba is, whoever leads democratic 
change and a fight for human rights, I suspect that person is a 
young person who was in that crowd, heard that Mass, and had a 
taste of freedom.
    But in the very real and practical sense of the moment, are 
there any tangible concessions that Fidel Castro made to the 
Holy Father other than the few prisoners?
    Mr. Zuniga. Up to now, there is not one that I could 
mention.
    Senator Torricelli. So then, the last two principal 
international efforts at reconciliation with Cuba, those of the 
United States Government and by the Catholic Church, have 
yielded nothing?
    Mr. Zuniga. Nothing really.
    Senator Torricelli. These facts, therefore, should be 
instructive to the King of Spain as he plans his own trip?
    Mr. Zuniga. I think that it will follow the same pattern 
that we saw with the Pope.
    Ms. Montaner. The same.
    Senator Torricelli. Is there then a greater chance of the 
King of Spain being used during his visit for propaganda 
purposes than any realistic hope that he would be able to get 
any concessions?
    Mr. Zuniga. Even if a great influence, personality, can't 
convince him, even if the words of a Pope could not make any 
dent in Castro's iron fist, do you think that a King of Spain 
could do that?
    Senator Torricelli. I do not. That is why I hope the King, 
for whom I have profound respect and a great admiration for his 
country, will not allow his position to be used. He has an 
opportunity to learn by the experience of the U.S. Government, 
which has been so unsuccessful.
    Mr. Calzon. Senator, my hope is simply that the King, if he 
decides to go to Cuba, will obtain concessions before he goes. 
If there are going to be any concessions, they have to be 
announced before he goes.
    Senator Torricelli. Yes, although I would remind you that I 
think the Holy Father was of the impression that he had such 
concessions and agreements worked out in advance as well. They 
were not kept.
    Could I ask your reactions to the usefulness of the 
Iberian-American Summit that has been proposed for Havana for 
later this year? What reaction do you have as to its prospects? 
This must be brief because of my time constraints.
    Mr. Calzon. Senator, I would hope that those meetings, all 
future meetings, in Havana would be reconsidered in view of 
what has happened in Cuba in the last few days.
    Senator Torricelli. Therefore, the international community, 
recognizing the jailing of dissidents, these new laws on 
journalistic contacts, countries should reconsider their 
decision?
    Mr. Calzon. That is my hope, Senator.
    Senator Torricelli. Mr. Zuniga, do you have the same 
position?
    Mr. Zuniga. Yes, indeed.
    Senator Torricelli. I am curious, by the way. I have lived 
in the Americas all my life. The Government that I represent 
here represents half the economic activity of the Western 
Hemisphere and its largest population and its longest existing 
government. I am curious as to why the United States and our 
representatives would not be invited to Havana and how there 
can be a conversation on the future of the Americas without us.
    Ms. Montaner. The Iberian community, the community with 
Iberian roots, Spanish speaking and Portuguese speaking 
countries, will be at that particular summit. At that 
particular one, Portugal will be there and Spain, too.
    Senator Torricelli. The United States is now the largest 
Spanish speaking Nation in the Western Hemisphere.
    Ms. Montaner. Yes, indeed.
    Mr. Zuniga. That's correct.
    Mr. Calzon. We are, indeed.
    Senator Torricelli. I want to make it clear that if Fidel 
Castro for this period did respect human rights and were to 
reverse his recent proposals, I, for one, would go to Havana. I 
would like a chance to tell Mr. Castro what I think of his 
government, his repression of his people, and the way that he 
has conducted himself. If he wants to have a dialog, he should 
invite those who find the greatest critique with his regime.
    Let me, finally, Mr. Chairman, if I could, remind members 
of the committee and our guests that these actions taken by 
Fidel Castro in recent weeks are not about a mounting concern 
of the U.S. Government. This is not about the exile community 
or international opposition. It is Fidel Castro's fear of his 
own people.
    In some measure, every time I see that Fidel Castro is 
repressing another human rights dissident, betraying promises 
to the Catholic Church, passing laws further restricting civil 
liberties, I recognize that the embargo policy is succeeding.
    Fidel Castro is afraid of his own people. He has stripped 
them of all weapons, all power or ability to speak and organize 
and he lives in terror.
    We are succeeding.
    Mr. Chairman, thank you very much for your patience and 
again for your leadership.
    The Chairman. Well said. Well said.
    Let me say, again, that we are delighted to have you on 
this committee.
    Senator Torricelli. Thank you, Mr. Chairman.
    The Chairman. Let me thank each of you for being here. I 
know you came under somewhat severe circumstances. One of our 
scheduled witnesses, Dr. Omar del Pozo, was unable to come 
because of the weather.
    Without objection, I shall invite him to submit a statement 
to be included in the record of this hearing.
    [The prepared statement of Dr. del Pozo appears in the 
appendix on page 29.]
    Finally, I would make a personal comment. I am afraid that 
I may be the only person in this room who remembers Batista. I 
was old enough to understand the circumstances in Cuba and how 
they differ from today's. He had his critics, he made his 
mistakes, and he departed.
    But I also remember very well how Mr. Castro was out in the 
boondocks and the American media just flocked to him. Night 
after night on CBS Edward R. Murrow would proclaim him as being 
everything good. He was a nice young fellow, a freedom fighter, 
and all the rest of it.
    Meanwhile, Herbert Matthews of the New York Times every 
morning was telling what a virtuous man Fidel Castro was. I 
think the American people assumed that this must be so.
    I also believe that by the time Castro got in and 
confiscated all of the weapons of his political enemies and put 
them in prisons for years, and years, and years, the American 
people also had their attention diverted to other matters 
involving our own country, and so forth. I think that Mr. 
Castro was lucky in that he had an alliance with the Soviet 
Union from whom he got billions of dollars every year.
    Since that has dissolved, he is in trouble and he is doing 
all sorts of things to his own people, confiscating the 
salaries or the income of doctors and lawyers, for that matter. 
The things that they are having to resort to to feed their 
families are just atrocious.
    But, in any case, I appreciate your coming. We are about to 
wind up on exactly the time I am supposed to conclude this 
committee meeting. I conclude it with my sincere gratitude to 
all of you.
    If there be no further business to come before the 
committee, we stand in recess.
    [Whereupon, at 11:59 a.m., the committee recessed.]
                                APPENDIX

                              ----------                              


Prepared Statement of Senator Paul Coverdell, U.S. Senator from Georgia
    Mr. Chairman, I commend you for holding this hearing today on the 
important issue of human rights in Cuba. The title of this hearing, 
``Castro's Crackdown in Cuba,'' is certainly fitting, for in the past 
several months the Cuban people have been the victim of renewed 
repression at the hands of the Castro dictatorship. Recent months have 
reminded us yet again of the brutal and repressive nature of Fidel 
Castro.
    I am sorry to say that Cuba remains an aberration in our 
hemisphere. The rest of our neighbors have made historic and permanent 
steps toward democracy, respect for human rights, and free market 
economies. Yes, there have been setbacks to this progress. Central 
America currently faces serious challenges in getting their economies 
back on their feet in the aftermath of Hurricane Mitch. But democratic 
principles and economic opportunity in this region will prevail.
    But Castro's Cuba remains a black spot in the forward progress of 
this hemisphere. It is the only country in the region, and one of the 
few remaining countries in the world, where authoritarianism, 
oppression, and fear prevail--and where freedom of association and 
freedom of expression have little meaning.
    Just over a year ago, Pope John Paul II visited Cuba and encouraged 
the island to open itself to the world and urged Castro to permit the 
growth of civil society. In the months since, Castro has not heeded the 
Pope's advice. To the contrary, repression has increased and the human 
rights situation has deteriorated even further. Pro-democracy and human 
rights activists continue to be intimidated, and denied due process and 
fair hearings. According to many reports, independent journalists are 
harassed and detained for reporting any news contrary to the official 
line.
    If some of us had hoped for visible, significant improvements in 
the wake of the Pope's trip, Castro's recent measures have crushed 
these illusions. New measures imposed just last month toughen penalties 
for political dissent. And, last week, four prominent pro-democracy 
activists were put on trial for writing a document criticizing Cuba's 
one party system. They had been detained in July, 1997, held for more 
than a year without charges, and then finally charged with subversion 
and undermining state stability. In this case, the international 
community has again seen the true nature of the Castro regime and the 
suffering the Cuban people endure on a daily basis.
    We in Congress look forward to the day when the people of Cuba once 
again prosper in a free and open society, a society where human rights 
and human dignity are respected. We look forward to the time, in the 
not so distant future, when the people of Cuba freely elect a 
government and join the other nations in this hemisphere in realizing a 
free and prosperous future.
    Mr. Chairman, I again thank you for calling this hearing and would 
like to thank the distinguished panelists for their presence here 
today.
                                 ______
                                 
                Prepared Statement of Dr. Omar del Pozo
    I was a prisoner of conscience. The Fidel Castro regime imprisoned 
me for creating and organizing a political opposition organization 
named National Unity Committee which sought to promote democracy and 
the resurgence of a civil society in Cuba. Our vehicle to voice our 
ideas to the Cuban people were the popular short wave radio stations 
that broadcast from the United States, mainly the Voice of the Cuban 
American National Foundation.
    For this ``crime'' I was sentenced to fifteen years, of which I 
served nearly six, having been released through the intercession of 
Pope John Paul II as a result of his visit to Cuba, and subsequently 
exiled to Canada. Prior to that, I had served three years for 
attempting to seek political asylum while on duty abroad as a doctor. 
On September 6, 1991, I was among the protestors who gathered in front 
of Villa Marista, the national headquarters of Cuba's dreaded State 
Security, and called for freedom on behalf of all political prisoners. 
The peaceful protest, which ended in arrests and beatings against the 
participants, became a milestone for Cuba's beleaguered opposition, and 
sealed my fate as a prisoner of conscience.
    As a survivor of the Cuban gulag, I am uniquely qualified to 
discuss the plight of political prisoners, including the four authors 
of the manifesto La Patria es de Todos [The Homeland Belongs to Us 
All]: Marta Beatriz Roque, Vladimiro Roca, Rene Gomez and Felix Bonne. 
I know what life is like in Castro's prisons, where there is no respect 
for the human condition; where hunger, isolation, and beatings abound; 
where the total lack of medical attention and hygiene compounds 
needless suffering and promotes the proliferation of diseases in 
epidemic proportions, and where one's physical and spiritual strength 
is constantly tested by a prison system specifically designed to break 
one's resistance and resolve, a cruel system enforced by prison 
authorities who are typically no better than the dangerous common 
inmates political prisoners are forced to cohabit with.
    In Castro's man-eating prisons, lives are swallowed, mangled, and 
spit out in what can only be described as his revolving-door of infamy. 
Some may claim that the fact that I am able to stand before you here 
today is because I am a product of engagement with Castro. While I am 
certainly grateful for the international outcry that created pressure 
on Castro to release me, it would be negligent of me not to recognize 
that as long as the dictator remains in power, there will continue to 
be political prisoners who are destined to become pawns to be handed 
over as tokens depending on the occasion. I benefited from early 
release and from the support given to my case by human rights organisms 
such as Amnesty International, but my release in no way benefited the 
hundreds, perhaps thousands, of men and women who were left behind. Men 
like Julio Cesar Alvarez, who was 23-years old when he was charged with 
me in 1992 and sentenced to 19 years; men like Jorge Luis Garcia Perez, 
who's release the Holy Father also requested, but was denied, now 
entering his ninth year of tortured existence in Fidel Castro's hell 
holes; courageous women like Migdalia Rosado, and Maritza Lugo, who as 
we speak is on hunger strike in Havana's Manto Negro prison for women, 
\1\ having left her fifteen and seven-year-old daughters in the care of 
relatives, because her husband, Rafael Ibarra, is imprisoned too, 
serving a 20-year sentence. Maritza was imprisoned because she refused 
to remain silent as to the mistreatment and injustices heaped upon her 
husband who has been confined in the remote prison of Kilo 8, one of 
Castro's most notorious, since 1994. And still others, like my 
colleague Dr. Oscar Biscet, a peaceful man who took his anti-abortion 
and death penalty message to the streets of Havana. Contrary to what is 
generally being reported, not all the activists who were arrested 
during the most recent crackdown were released.
---------------------------------------------------------------------------
    \1\ The official name of the prison is Prision de Mujeres de 
Occidente. The name Manto Negro, or Black Shroud, was given by the 
thousands of women political prisoners who were confined there during 
the sixties and seventies.
---------------------------------------------------------------------------
    How many more like them are serving political sentences in Cuba? No 
one truly knows with any degree of accuracy. For the last 15 years 
there has been no in-situ inspection by international human rights 
monitors of Cuban prisons. In a country with well over 200 prisons, and 
a penal code that establishes such outrageously arbitrary laws as the 
Law of Dangerousness, which calls for sanctions of up to four years in 
prison for individuals, who have committed no crime, simply because 
they demonstrate, and I quote, ``. . . behavior that manifestly 
contradicts the norms of socialist morals'', it is clear how easy it is 
for the Cuban State to conceal political prisoners by charging 
individuals with common crimes. They may not get away with it in the 
case of well-known dissidents, but for scores of nameless others, the 
political nature of their so-called offense remains hidden under a 
shroud of delinquency.
    Forty years have passed, and a new millennium dawns, and still 
political prisoners exist in a country only 90 miles from the shores of 
the freest nation on earth. The Cuban people and especially the members 
of the political opposition are living through extremely difficult 
times. As if the situation were not bleak enough, Cuba's sham of a 
parliament just recently enacted tougher sanctions against independent 
journalists and dissidents who dare speak out.
    In the confusion of cliches Cuba has become in the mass media: 
Castro and cigars, Castro and tourism, Castro and baseball, the 
terrible tragedy of Cubans and their legitimate needs and desires takes 
a backseat to the priorities set by the Comandante en Jefe and his 
regime. The truly tragic part is that there are some who, in the name 
of profit, are willing to compromise justice and play by his rules, 
with no regard for the welfare of the Cuban people. Up to now, they 
have excused their behavior by saying that trade and investment will 
create other cracks in Castro's stone wall. In light of the most recent 
crackdowns and political trials lacking due process, where Castro's 
unwillingness to change is, yet again, more than manifest, I can't help 
but wonder what arguments they will turn to next to continue to excuse 
the inexcusable.
    These past days, I have heard even experienced Cuba observers 
question why Castro has raised the level of repression at this point in 
time, considering the many gestures of goodwill he has received 
internationally prior to and following the Papal visit. The only 
possible answer is that it is the nature of the beast. Castro can not 
help it any more than he can help being a totalitarian dictator. It is 
who he is and will always be. It is because he is motivated by one 
thing and one thing alone: absolute power. He wants to continue to 
stand on the backs of the Cuban people and he will persecute, torture 
and kill in order to accomplish his goal of being Cuba's ``dictator for 
life''. By now, everyone knows who Castro is and what he is capable of. 
From this point on, the field can only be divided between those who are 
willing to overlook his crimes and those who are not.
    The Cuban people do not want empty gestures. They want true 
solidarity and allies in the struggle for freedom and human dignity. In 
this regard, the United States will continue to be looked upon for 
leadership in a world contaminated by half-heartedness and less than 
noble intentions. The United States should and must support the cause 
of freedom and democracy and the political opposition movement in Cuba 
as well as continue to actively seek international consensus on this 
issue. It may very well be the best contribution to peace, not only in 
Cuba, but in the rest of the hemisphere.
                                 ______
                                 

              Prepared Statement of Eloy Gutierrez-Menoyo

                      for a new policy toward cuba
    Ladies and Gentlemen of the Committee; Honorable Members of 
Congress: I appear before you with deep respect and humility. I would 
like to assure those of you who do not know me that I am absolutely 
committed to the concepts of liberty and democracy. With your 
permission, I will explain why I cannot be otherwise.
    I am Cuban by inclination and by dint of my efforts in the long and 
painful struggle against a dictator known as Batista. In 1959, I was 
the first commander of the Revolution to enter Havana. It was a popular 
triumph, full of jubilation and hope.
    I had headed the second guerrilla front in the central mountains of 
the Island, with more than three thousand rebel soldiers under my 
command. My brother Carlos had died heroically in the fight against 
Batista.
    My childhood had been steeped in love for liberty and democracy. 
When the Revolution triumphed, when it captured Havana after 25 years, 
these two terms were not new concepts or just vague words to me. Before 
leaving Europe to settle in Cuba, my brother Carlos had been recognized 
as an anti-fascist hero. He fought in Spain against the dictator 
Franco, and if you reviewed the documents and photos of that era, you 
could see how he extended his struggle to the occupied countries, 
entering Paris in a tank, next to General Leclerc, on the glorious day 
of liberation.
    This is part of my family's and my history. We are children of a 
father who loved liberty and democracy, a social democratic physician. 
We were born in the midst of the Nazi threat. At the age of 8, I 
learned first-hand about the pain of war: my brother Jose Antonio, just 
16, died fighting against Franco's troops on the Majadahonda front.
    Liberty and democracy. And their high price in sacrifice and pain! 
When we felt the Revolution was not prepared to honor these concepts, 
at least as we understood them, we broke with the government of Fidel 
Castro.
    In 1961, with most of my General Staff, I left the Island for the 
United States. I did not take part in the Bay of Pigs invasion backed 
by Washington. I did not join the ranks of the Central Intelligence 
Agency. I did not join in the terrorism against Cuba.
    After several years of ``commando''-type attacks from the 
Caribbean, in an honorable, independent, and small-scale war, I again 
disembarked in Cuba. After several engagements with more than 20,000 
Cuban government troops, I was captured and spent 22 years in Cuban 
prisons.
    This is, in part, my origin. Today, you know that Cambio Cubano--
the organization I represent--supports a peaceful solution on the 
Island and believes that, for this to occur, Washington's policy toward 
Havana and Havana's policy toward Washington and the Cubans themselves 
must change.
    Ladies and Gentlemen of this Committee: you are in the process of 
again reviewing America's policy toward Cuba. Let's not fool ourselves! 
This means that the policy contains fundamental flaws and errors, even 
for those who have defended tightening the embargo.
    But let me tell you something else: 40 years of isolation have 
failed. So, with your permission, I'll ask you: Why are we here today? 
To multiply to infinity the misfortunes of eleven million Cubans? To 
satisfy a specific pressure group, which is becoming less and less 
powerful and more and more discredited, in the south of Florida?
    You will have heard, you will hear, the pained voices of some of my 
compatriots. Many of them respectable, although I believe they are 
mistaken. Others, of questionable independence.
    My fear is that this discordant exercise will result in a return to 
the ``deadlock'' policies that have only achieved two things: on the 
one hand, providing a skillful politician like Fidel Castro with a 
formidable pretext; on the other hand, allowing him, cloaked in that 
pretext, to prolong his control over the country.
    My appearance here occurs at an opportune time. Cuba is in the 
throes of a serious economic and social crisis. It is, perhaps, the 
Cuban government's worst political moment. After clear signs of 
opening-up following the encouraging Papal visit, there is now growing 
pressure against certain groups of so-called dissidents. On the one 
hand, there is the reality of this conflict; and on the other, the 
selfish desire of some to magnify this episode.
    If the intent of the political hyperbole is to try to connect these 
events with a desire to foster the supposed need for confrontation, it 
seems to me that this Committee should carefully look after the best 
interests of the United States. Confrontation is not advisable for the 
United States, or for anyone . . . and if it were advisable for anyone, 
perhaps it would be--in a very oblique way--the Cuban government, since 
it would reinforce its best pretext: ``if we dig in our heels and do 
not permit opening-up, it is precisely because of pressure from 
Washington.''
    I am appearing before you in the hope that my testimony will be of 
specific use, both for the resolution of the dispute between Cuba and 
the United States, and for a favorable resolution for all Cubans. 
Ladies and Gentlemen of the Committee: because I hope this testimony 
will be useful, I have decided to make some disclosures here, to the 
extent caution permits.
    In June of 1996, I was received in Havana by President Fidel 
Castro. This unusual meeting, apparently of two opponents ``to the 
death,'' turned into a frank dialogue in which Castro shared with me 
some of his desires, concerns, and fears about what a possible 
political opening-up on the Island could lead to, but he left the door 
open for calm, responsible diplomacy on Washington's part. Let us start 
from the assumption that the policies towards Cuba that have been tried 
since 1959 have not been exemplary. A clear and uninhibited 
confrontational route, paved with covert operations, attacks, and 
conspiracies of various kinds, has prevailed. This is public knowledge.
    Castro told me I should fear extension of this route by other 
means. He is shrewd.
    In recent weeks we have read important and revealing reports in 
this country's press: How much did certain American authorities know 
about the danger represented by the flights of small light aircraft 
over Cuba? Why, then, were they authorized to fly? What was being 
fostered with these risky provocations? Why is that kind of 
inexplicable synchronism between here and there so amazing to us?
    With the shooting down of the light aircraft--enormous stupidity on 
Havana's part--what we had achieved in our first meeting with Castro 
was ended. We had agreed to the possibility that a space would open up 
for Cambio Cubano: first, an office; then, we would see.
    The shooting down of the light aircraft resulted in the Helms-
Burton Act. It was inevitable.
    Pardon me, Messrs. Helms and Burton, your law is an insult to 
Cubans, offends the world, and puts this country in a paradoxical 
position: how to change the Cuban government with a law it can use as a 
tool to invoke nationalism and keep itself in power?
    Constructive rapprochement was yesterday, is today, and will be 
tomorrow and always, the best solution for conflicts.
    Fidel Castro is looking for clear signals to initiate an effective 
and calm diplomacy in which it is clear that the United States 
renounces, in word and deed, any desire for hegemonic dominance over 
Cuba. Believe me, this is his feeling and this is his hope.
    I am not speaking--believe me--as an ambassador from Havana. I did 
not participate in the alliance with Moscow, or the political 
executions, nor was I a tool of American policy. Years ago, having just 
been released from the political prison, I was invited to Geneva, along 
with the U.S. delegation, to report on human rights violations in Cuba. 
For those of us who have insisted on the need to re-Cubanize the 
opposition, it seemed to me ethical and a good idea, at that time, to 
also ask for respect for human rights in the Paraguay of the dictator 
Stroessner.
    The person addressing you, then, is an absolutely independent 
Cuban. So much so, that I am excited about being able to think of a 
day, in the future, when true democracy will prevail in Cuba; a day 
when Cubans and Americans see each other as good neighbors, without the 
fear that the one will become masters and the other, servants.
    Is this possible? We know it is, but only if we cast off the failed 
policies of interference. Recently, a group of well-known Democrats and 
Republicans proposed the establishment of a Bipartisan Committee to 
sensibly assess the state of American policy toward Cuba and the 
possibility of finding new alternatives.
    We support that initiative, which seemed encouraging to us.
    Is it possible to change the minds of the most stubborn? Yes, it is 
possible. In 1949, a young politician named Richard Nixon was 
tormenting the Truman administration--and the Democrats in general--for 
having permitted the defeat of the Nationalist Chinese. I invoke the 
name of Nixon because his position in favor of a government in Taiwan 
and his radical opposition to Communist China could not then presage 
what in 1971 would be a true foreign policy achievement, spearheaded by 
Henry Kissinger, who is today asking for the Bipartisan Committee. (By 
the way, I would like to remind you that the same Nixon left, in his 
memoirs, clear advice on the need to change foreign policy toward 
Cuba).
    The United States, through confrontational rhetoric and by means of 
its laws--first, Torricelli; then Helms-Burton--is insisting on the 
need to foster a civil society in Cuba.
    The ingredients of harassment, however, inherent in those laws, 
tend to create conditions for an internal explosion. What is it that is 
sought, perhaps a repetition of the Hungary of 1956? To top it off, the 
most recent law even violates the most basic rules of 
extraterritoriality in relation to other countries.
    So the United States has been forced to enact a law that annoys the 
rest of the world, hatched under pressure, blackmail, and the delusions 
of certain Cuban elements who are distinguished by their anti-popular 
elitism, corrupt lives, and determination to use Washington as a 
vehicle for their dreams of power.
    How removed those elements are from the feelings of 11,000,000 
Cubans! When will you, all of you, stop thinking about that corner or 
miniscule area of Miami and begin to think productively about the 
Island, 90 miles from your shores, and about the United States' true 
interests? Do you know the feelings of the extremely large Black and 
mestizo population that cannot have money sent because they do not have 
relatives in the diaspora?
    Is the United States aware of the message it sends to the poorest 
Cuban people when it allies itself with the rancorous, arrogant extreme 
right?
    American antagonism has been giving Havana an irreplaceable excuse 
to explain, more or less rationally, its absolute control. After nearly 
forty years of use and abuse, the romantic notion of ``David versus 
Goliath'' seems to remain useful to Fidel Castro.
    It is useful to him domestically and yields him benefits in the 
international arena. Why do some of you insist on helping to perpetuate 
this state of affairs? Why prolong policies that do not work and that 
intrinsically entail the danger of an adverse ending of incalculable 
proportions?
    The Cuban conflict is quite complex. Castro is strengthened by the 
awkward policy of the exiled extreme right. But he is also strengthened 
by the new internal elements, who are encouraged to engage in useless 
confrontation, sometimes from abroad, sometimes by the Cuban 
government's own security mechanism.
    It is time for the United States to abandon this conflict and move 
ahead with a policy of constructive rapprochement.
    It is time for the United States to cast off the role of zealous 
and selfish pariah and begin to work with the countries of the region 
and the European community.
    You could help if you understood that there will only be political 
space for an opposition in Cuba when the independence of the activists 
and the non-destabilizing nature of their activity are guaranteed.
    You could help if you understood that the civil society that will 
emerge in Cuba will have its own characteristics and not those dictated 
or imposed from abroad.
    You could help if you understood that to the extent the U.S. and 
Cuba make progress in discussing transparent agendas, the Cuban 
government will not need to avoid sitting down and having discussions 
with the opposition.
    I do not pretend to have a monopoly on pain, but I believe 22 years 
in prison and an entire life of struggle entitle me to seek peace 
between you and Cuba, and peace among all Cubans. If I did not, I would 
be sharing guilt with those who test, in an irresponsible and sinister 
manner, the dangers of widespread anarchy on the Island, with its 
inevitable consequence of battles between factions and unstoppable mass 
exodus, capable of destabilizing the entire Caribbean region and a good 
part of the United States.
    Some would ask themselves: What mystical revelation has converted 
this man, who seems to have lived war since his childhood, to pacifism?
    Ladies and Gentlemen: Precisely because I lived through the Spanish 
Civil War as a child, I do not want anarchy to take possession of Cuba. 
I recall horrible scenes I do not want to be repeated. Hungry children, 
running after a rat, I do not want this to be repeated! Children armed 
with sticks and knives, furiously attacking adults for a little 
something to eat, I do not want this to be repeated!
    The United States has always been a country of prodigious 
imagination for creating ideas that help humanity. Not far from the 
south of Florida there is an Island that demands respect, calm 
analysis, and a good dose of the compassion which for years has been 
the best component of the American nations character, and without a 
doubt, its people's most admirable trait. Eleven million Cubans await 
that compassion. It is up to you.
    Thank you very much.
                                 ______
                                 

       European Investment in Cuba Before Human Rights Crackdown

                    Submitted by Senator Jesse Helms

       (Prepared by the Senate Foreign Relations Committee Staff)

    ``Four European nations--Italy, Spain, England and France--account 
for the bulk of foreign investment in Cuba, with about 50 percent, . . 
. Marta Lona, Assistant Minister for Foreign Investment, said.
                       ``Cuba Expects Foreign Investments''
                                         CubaNet News, June 6, 1998

    ``The Netherlands Caribbean Bank nc, a joint venture that includes 
the Dutch ING Bank, is the first foreign bank to be represented in 
Cuba, said Carel Lopez, the Havana representative of the Netherlands 
Bank . . . it [ING bank] is involved in the financing of export and 
import ventures in Cuba . . . `we have seen significant additional 
investments recently,' observed Lopez, particularly from companies in 
Western and Eastern Europe . . . Talks are under way with a Swedish 
company for a fast ferry service between Cuba and Mexico, said [Silvio] 
Calvez, [advisor to the minister of transport].''
                                     ``Invitation to Cuba''
                       Traffic World/lexis-nexis, December 14, 1998

    ``European firms, such as the $29 million (United Kingdom) Beta 
Gran Caribe Fund, have raised hundreds of millions [earmarked for Cuba] 
. . . Today's steps suggest the U.S may ease its embargo in the not-
too-distant future, said Peter Scott, the chief executive officer at 
Beta Funds Ltd., the London-based firm that runs Beta Gran Caribe, the 
only fund that invests exclusively in Cuba . . . For now, European 
firms like Beta `are able to cherry pick investment projects in Cuba 
without competition from what should be the major source of 
competition--the United States,' Scott said . . . Spain's Sol Melia SA 
manages nine hotels in Cuba. Italy's Telecom Italia SpA owns 29 percent 
of the Cuban national phone company, Etecsa.''

``For Now, Cuba Remains Phantom Market for Many Investors''
                                      CubaNet News, January 1, 1999

    ``Companies from Canada, Britain, France, Sweden and Spain, in 
partnership with Cuba's state oil company Cupet . . . have been hunting 
for oil in 22 offshore and onshore blocks . . . Britain's Premier Oil 
is planning to drill its first well this year in central Cuba . . . 
Sheritt, accompanied by Canadian, Swedish and Spanish partners, was the 
operator in three exploration blocks off Cuba's south-eastern coast, 
where an exploration well was drilled last year.''

     ``Lure of a big find draws oil companies to high-risk 
                                                     Cuba''
                       Financial Times, lexis-nexis, April 16, 1998

    ``Two ventures involving developers from Monaco and Spain are 
currently selling units of apartment complexes being constructed in 
Havana's Miramar district . . . A third residential property venture, 
which will also build apartment homes, has recently signed by a British 
investment fund. Several other projects have been approved and many 
more are under negotiation . . . Through a joint venture with a Cuban 
company, British and Canadian investors have established a Havana 
office of RE/MAX, the North American real estate franchise giant, which 
will market new apartments and offices in Cuba. `Demand is high. We 
anticipate selling over 500 home units in the first 12 months,' Stephen 
Marshall, the British co-owner of the RE/MAX Havana franchise, said . . 
. `The market is good irrespective of the absence of the law,' said 
Simon Hodson, Chief Investment Officer of Havana Asset Management 
Limited, which runs Beta Gran Caribe, a British-based investment fund 
specialising in Cuba. The fund, through its Guernsey-registered 
Caribbean Property Corporation, recently set up a joint venture in 
Cuba, called Trinidad S.A., with Inmobiliria Cimex, a Cuban real estate 
company . . . The total potential investment could exceed $l00m . . . 
Two other joint venture projects are already selling homes. Most 
advanced is the Monte Carlo Palace, a 31-apartment complex on Mirimar's 
Fifth Avenue due to be completed this year. This belongs to Real 
Inmobiliria, a venture between a Monaco-based group Pastor, and Lares 
S.A., another Cuban property company . . . Other investors are reported 
to be queueing up for a share in Cuba's residential property market. 
The list of presented projects includes Canada's Sherritt International 
Corporation, Fransabank of the Lebanon, Portugues group Anorim, 
Britain's Railton Internationl and US group Lincoln Property Company, 
operating out of its Mexico office.''
                        ``Latin America and the Caribbean''
                        Financial Times, lexis-nexis, July 14, 1998

    ``. . . [Cuban Economy and Planning Minister Jose] Rodgriguez said 
that at present there are 340 foreign association agreements in effect 
and that the trend is to increase because there are investors from 
Europe . . . who are prepared to negotiate because they are guaranteed 
a profit.''

  ``Minister says foreign investment is growing despite US 
                                                pressures''
        BBC Summary of World Broadcasts, lexis-nexis, June 30, 1998

    ``. . . Most . . . investments are in light industry, tourism, 
foods, agriculture and construction . . . Four European nations Italy, 
Spain, England and France account for the bulk of foreign investment in 
Cuba, with about 50 percent . . .''

                       ``Cuba Expects Foreign Investments''
                              AP Online, lexis-nexis, June 15, 1998

    ``[Foreign Investment and Economic Cooperation Minister Ibrahim 
Ferradaz] pointed out that 40 countries have businesses on the island, 
mainly Spain, Italy, Canada, Netherlands and France . . . To date, 
there are joint ventures in 34 sectors, mostly in petroleum, mining, 
tourism and telecommunications.''

   ``Minister gives details of foreign investment in Cuba''
     BBC Summary of World Broadcasts, lexis-nexis, January 27, 1998

    ``. . . the state-run Cubanacan tourism concern and Italy's La 
Casina and Simset Spa agreed to build a $18 million pair of hotels in 
the resort area of Varadero and Saint Lucia Key east of Havana . . . 
The French tourism giant Accor has announced that it will administer 
two new hotels and an apartment complex currently under construction in 
the exclusive Miramar district of Havana.''

  ``Lured by Sun and Socialism, Tourists Flocking to Cuba''
                  The Washington Post, lexis-nexis, January 9, 1999

    ``Italian companies are among European investors in Cuba. They 
include the Italian telecommuncations company Stet, now Telecom Italia, 
which avoided being penalised by the Helms-Burton law by striking a 
deal with ITT, the former US owner of the nationalised Cuban telephone 
system in which Stet had invested.''

 ``Cuba `need not fear' US-EU deal HELMS-BURTON Italy Sees 
                                                No Threat''
                        Financial Times, lexis-nexis, June 12, 1998

United Kingdom
    ``Britain has `no hang-ups' over trading with Communist-run Cuba 
and is eager to catch up with other European nations doing more 
business with the Caribbean island, a senior British government 
official said . . . [Trade Minister Brian] Wilson said Britain was 
attracted to Cuba as a market of 11 million people with `very 
significant potential for the future' . . . Britain has lagged behind 
other European nations like Spain, Italy, France, and Germany in doing 
business on the island . . . some 30 British companies were represented 
at the trade fair and . . . his visit was intended as a `strong signal 
that we do want to find a way through.' ''

               ``Britain has `no hang-ups' over trading with Cuba''
                                     CubaNet News, November 3, 1998

United Kingdom
    ``A British trade mission made up of mainly small firms voiced 
optomism on Thursday about Cuba's investment potential and said it 
hoped to boost the relatively low levels of U.K. business on the 
Communist-ruled island . . . `The doors have been very open as always . 
. . There are very good investment opportunities here,' mission leader 
Trevor Jones, of security printing company De La Rue, told a news 
conference in Havana . . . tangible results here included the opening 
of a commercial office for Petroplastics & Chemicals Ltd., further 
participation in the financial sector for De La Rue, and a likely joint 
venture between khaleej Cars Ltd. and the Cuban state to build beach 
buggies here for internal use and export . . . Britain has so far 
lagged behind some other nations from the European Union . . . in 
taking advantage of Cuba's opening to foreign capital since the early 
1990's . . . British Embassy officials said the United Kingdom ranked 
in the top 10 investors, but was still well short of Cuba's leading 
partners Canada, Spain, Italy, Mexico and France . . . Bilateral trade 
in 1997 was about 34 million pounds ($55 million) in 1997, with 22 
million pounds ($36 million) of British exports to Cuba, and 12 million 
pounds ($19 million) in the other direction, according to the British 
Embassy. But in the first three months of this year, U.K. exports to 
the island have risen 96 percent, compared to the same period of 1997, 
to 12 million pounds ($19 million), and Cuban exports 45 percent to 5 
million pounds ($8 million).''

        ``British businesses seek more investment in Cuba''
                                        CubaNet News, June 11, 1998

United Kingdom
    ``Britain's Export Credits Guarantee Department (ECGD) has begun 
negotiations on possible support for a power project by Canadian firm 
Sherritt International Corp. The project is an expansion of the Energas 
venture, which produces power using natural gas produced from the 
Varadero and Jaruco fields . . . ECGD reportedly is discussing 
guarantees that would allow the venture to buy turbines and other 
equipment from Scottis firm Kvaerner Energy Ltd. The expansion 
reportedly included the construction of one or more barge-mounted 
generating facilities . . . Sources say that British Development Corp., 
which also has an office in Havana, is also interested in a role in the 
project . . . One reason the ECGD has begun to hold talks with the 
Cuban government is that British businesses have been complaining that 
they are at a disadvantage when competing against companies from other 
countries because they cannot tap government export credits or 
guarantees. By contrast, export credit agencies from France, Spain, and 
Italy are providing cover in Cuba. Trade between those countries and 
Cuba has increased faster than with the United Kingdom.''

 ``British export credit agency may reenter Cuba for power 
                                                  project''
                                            CubaNews, February 1999

Portugal
    ``The agreement with Portugal to mutually promote and protect 
investments was the ninth of its kind signed so far by Cuba with member 
states of the European Union . . . `Portuguese investments are starting 
up in Cuba, especially in tourism,' Jaime Gama, Portugal's Foreign 
Minister, said . . . `This means that as a result of this accord, 
European companies have much greater facilities to do business with 
Cuba,' the Portuguese foreign minister said . . . the large Portuguese 
business group Amorim announced that in partnership with the French 
leisure group Accor it was undertaking a major investment project to 
rehabilitate or build 10 tourist hotels on the island.''
      ``Portugal says EU-U.S. pact helps EU-Cuba business''
                                         CubaNet News, July 7, 1998

United Kingdom
    ``. . . companies active in Cuba include U.K.-based Premier oil . . 
.''

    ``Foreign Firms Help Cuba Double Crude Production in 9 
                                                    Years''
                                     CubaNet News, January 27, 1999
Spain
    ``Spain is Cuba's main trade partner and one of its main foreign 
investors.''

         ``Fidel Castro says Cuba anchored in the future;  
                           drugs accord signed with Spain''
    BBC Summary of World Broadcasts, lexis-nexis, November 13, 1998

Spain
    ``Spain is now Cuba's largest commercial partner and one of its 
major foreign investors. The normalization of bilateral relations will 
benefit Spain and Cuba commercially and provide more venture capital.''

                ``Cuban, Spanish ties continue to improve''
                  Xinhua News Agency, lexis-nexis, November 5, 1998

Spain
    ``Last year, Cuba traded 41 percent with Europe . . . Spain was the 
single biggest trade partner . . .''
             ``Cuba wants investments, if it's right kind''
                      Sun-Sentinel, lexis-nexis, September 11, 1998

Spain
    ``Of the more than 300 deals involving foreign investors at the end 
of 1997 . . . Spanish companies accounted for around 60.''

         ``Canada's Chretien has marathon talks with Cuba''
                        Caribbean Update, lexis-nexis, June 1, 1998

Spain
    ``The international Textile Association of Canary Island, Spain, 
and Cuba's Ministry of Light Industry signed a textile agreement.''

             ``Canary Island, Cuba Sign Textile Agreement''
                                          Cuba News, April 20, 1998
Belgium
    ``Cuba and Belgium signed an agreement on reciprocal protection and 
promotion of investments . . . in Brussels. The accord would contribute 
to their relations and investment growth between the two countries, 
said Ibrahim Ferradaz, Cuban Minister of Foreign Investment and 
Economic Collaboration. During his visit to Belgium, Ferradaz also 
discussed investment opportunities with companies from Belgium and 
Luxembourg.''
                  ``Cuba, Belgium sign investments accord''
                      Xinhua News Agency, lexis-nexis, May 20, 1998

Czech Republic
    ``. . . Cuba is presently interested in creating an influx of 
foreign investment, some of which could come from the Czech Republic . 
. . some of the projects that are interested in foreign investment 
include the metal components producer Metal-mecanica ESTIL, which is 
looking for an investment of $4m to augment its production of cast-iron 
an bronze elements for machine tools, and the Cuban state meat 
producer, which is looking for $700,000 to modernise its freezing and 
production capacities. Other profects looking for foreign investors are 
the installation of a Tetra Brick packaging line in the Food Ministry's 
fruit and vegetable processing company, as well as purchases and 
renewals of technical equipment in a factory of the state Geominera 
company . . .''

     ``Cuba Interested in Investments from Czech Republic''
               CTK Business News Wire, lexis-nexis November 2, 1998

                                   - 

</pre></body></html>
